<html>
<title> - DISTRICT OF COLUMBIA WATER AND SEWER AUTHORITY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]




 
             DISTRICT OF COLUMBIA WATER AND SEWER AUTHORITY

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON FEDERAL WORKFORCE,
                    POSTAL SERVICE, AND THE DISTRICT
                              OF COLUMBIA

                                 of the

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 15, 2008

                               __________

                           Serial No. 110-104

                               __________

Printed for the use of the Committee on Oversight and Government Reform


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                      http://www.house.gov/reform


                     U.S. GOVERNMENT PRINTING OFFICE
46-013 PDF                 WASHINGTON DC:  2008
---------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001

              COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM

                 HENRY A. WAXMAN, California, Chairman
EDOLPHUS TOWNS, New York             TOM DAVIS, Virginia
PAUL E. KANJORSKI, Pennsylvania      DAN BURTON, Indiana
CAROLYN B. MALONEY, New York         CHRISTOPHER SHAYS, Connecticut
ELIJAH E. CUMMINGS, Maryland         JOHN M. McHUGH, New York
DENNIS J. KUCINICH, Ohio             JOHN L. MICA, Florida
DANNY K. DAVIS, Illinois             MARK E. SOUDER, Indiana
JOHN F. TIERNEY, Massachusetts       TODD RUSSELL PLATTS, Pennsylvania
WM. LACY CLAY, Missouri              CHRIS CANNON, Utah
DIANE E. WATSON, California          JOHN J. DUNCAN, Jr., Tennessee
STEPHEN F. LYNCH, Massachusetts      MICHAEL R. TURNER, Ohio
BRIAN HIGGINS, New York              DARRELL E. ISSA, California
JOHN A. YARMUTH, Kentucky            KENNY MARCHANT, Texas
BRUCE L. BRALEY, Iowa                LYNN A. WESTMORELAND, Georgia
ELEANOR HOLMES NORTON, District of   PATRICK T. McHENRY, North Carolina
    Columbia                         VIRGINIA FOXX, North Carolina
BETTY McCOLLUM, Minnesota            BRIAN P. BILBRAY, California
JIM COOPER, Tennessee                BILL SALI, Idaho
CHRIS VAN HOLLEN, Maryland           JIM JORDAN, Ohio
PAUL W. HODES, New Hampshire
CHRISTOPHER S. MURPHY, Connecticut
JOHN P. SARBANES, Maryland
PETER WELCH, Vermont
------ ------

                     Phil Schiliro, Chief of Staff
                      Phil Barnett, Staff Director
                       Earley Green, Chief Clerk
               Lawrence Halloran, Minority Staff Director

Subcommittee on Federal Workforce, Postal Service, and the District of 
                                Columbia

                        DANNY K. DAVIS, Illinois
ELEANOR HOLMES NORTON, District of   KENNY MARCHANT, Texas
    Columbia                         JOHN M. McHUGH, New York
JOHN P. SARBANES, Maryland           JOHN L. MICA, Florida
ELIJAH E. CUMMINGS, Maryland         DARRELL E. ISSA, California
DENNIS J. KUCINICH, Ohio, Chairman   JIM JORDAN, Ohio
WM. LACY CLAY, Missouri
STEPHEN F. LYNCH, Massachusetts
                      Tania Shand, Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 15, 2008...................................     1
Statement of:
    Capacasa, Jon M., Director of Water Protection Division for 
      Water, Environmental Protection Agency; Thomas Jacobus, 
      general manager, Washington Aqueduct; Doug Siglin, Federal 
      Affairs director, Chesapeake Bay Foundation; and Robert 
      Boone, president, Anacostia Watershed Society..............   120
        Boone, Robert............................................   144
        Capacasa, Jon M..........................................   120
        Jacobus, Thomas..........................................   126
        Siglin, Doug.............................................   135
    Martin, Robin B., chairman, Board of Directors, D.C. Water 
      and Sewer Authority; and Jerry Johnson, general manager, 
      D.C. Water and Sewer Authority.............................    82
        Johnson, Jerry...........................................    90
        Martin, Robin B..........................................    82
    Stephenson, John B., Director, Natural Resources and 
      Environment, U.S. Government Accountability Office.........    59
    Tangherlini, Daniel, city administrator, District of 
      Columbia, and D.C. WASA Board member; Anthony H. Griffin, 
      county executive, Fairfax County, and D.C. WASA Board 
      member; Timothy Firestine, chief administrative officer, 
      Montgomery County, and D.C. WASA Board member; and 
      Jacqueline F. Brown, chief administrator officer, Prince 
      George's County, and D.C. WASA Board member................   157
        Brown, Jacqueline F......................................   172
        Firestine, Timothy.......................................   167
        Griffin, Anthony H.......................................   162
        Tangherlini, Daniel......................................   157
Letters, statements, etc., submitted for the record by:
    Boone, Robert, president, Anacostia Watershed Society, 
      prepared statement of......................................   146
    Brown, Jacqueline F., chief administrator officer, Prince 
      George's County, and D.C. WASA Board member, prepared 
      statement of...............................................   174
    Capacasa, Jon M., Director of Water Protection Division for 
      Water, Environmental Protection Agency, prepared statement 
      of.........................................................   123
    Davis, Hon. Danny K., a Representative in Congress from the 
      State of Illinois:
        Prepared statement of....................................    13
        Various prepared statements..............................     3
    Davis, Hon. Tom, a Representative in Congress from the State 
      of Virginia, prepared statement of.........................   199
    Firestine, Timothy, chief administrative officer, Montgomery 
      County, and D.C. WASA Board member, prepared statement of..   169
    Griffin, Anthony H., county executive, Fairfax County, and 
      D.C. WASA Board member, prepared statement of..............   164
    Jacobus, Thomas, general manager, Washington Aqueduct, 
      prepared statement of......................................   128
    Johnson, Jerry, general manager, D.C. Water and Sewer 
      Authority, prepared statement of...........................    93
    Marchant, Hon. Kenny, a Representative in Congress from the 
      State of Texas, prepared statement of......................   201
    Martin, Robin B., chairman, Board of Directors, D.C. Water 
      and Sewer Authority, prepared statement of.................    85
    Siglin, Doug, Federal Affairs director, Chesapeake Bay 
      Foundation, prepared statement of..........................   137
    Stephenson, John B., Director, Natural Resources and 
      Environment, U.S. Government Accountability Office, 
      prepared statement of......................................    61
    Tangherlini, Daniel, city administrator, District of 
      Columbia, and D.C. WASA Board member, prepared statement of   159
    Van Hollen, Hon. Chris, a Representative in Congress from the 
      State of Maryland:
        House Rept. 104-635......................................    25
        Prepared statement of....................................    52


             DISTRICT OF COLUMBIA WATER AND SEWER AUTHORITY

                              ----------                              


                        TUESDAY, APRIL 15, 2008

                  House of Representatives,
Subcommittee on Federal Workforce, Postal Service, 
                      and the District of Columbia,
              Committee on Oversight and Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m. in 
room 2154, Rayburn House Office Building, Hon. Danny K. Davis 
(chairman of the subcommittee) presiding.
    Present: Representatives Davis of Illinois, Waxman, 
Cummings, Kucinich, Clay, Lynch, Norton, Sarbanes, Issa, 
Marchant, and Jordan.
    Also present: Representative Van Hollen.
    Staff present: Tania Shand, staff director; Lori Hayman, 
counsel; William Miles, professional staff member; Marcus A. 
Williams, clerk; Earley Green, chief clerk; Howie Denis, 
minority senior professional staff member; and Benjamin Chance 
and Chris Espinoza, minority professional staff members.
    Mr. Davis of Illinois. The subcommittee will come to order.
    The subcommittee would like to welcome Ranking Member 
Marchant, witnesses and all of those in attendance.
    Ladies and gentlemen, welcome to the subcommittee's first 
D.C. Water and Sewer Authority [WASA], oversight hearing of the 
110th Congress. It has been nearly 3 years since a hearing has 
been held on WASA and issues pertaining to the quality of the 
city's drinking water and environmental conditions.
    Today's hearing will provide the subcommittee with the most 
current developments in WASA's operations, finances and 
infrastructure improvement efforts.
    Given the presence of the Federal Government in the 
Washington, DC, area and the reliance on WASA for the provision 
of water-related services to the Federal Government, today's 
oversight hearing is a critical part of the processes for 
ensuring the continual and reliable delivery of safe drinking 
water and wastewater treatment services to area residents, 
businesses, Government agencies and certain suburban 
jurisdictions.
    Since its creation as a quasi-independent regional utility 
agency in 1996, WASA has made significant progress in carrying 
out its statutory mandate of providing retail drinking water 
distribution, wastewater collection and wastewater treatment 
services to 570,000 District residential and commercial 
customers and providing wholesale wastewater treatment services 
to over 1.6 million customers in Montgomery and Prince George's 
Counties through the Washington Suburban Sanitary Commission 
and Fairfax and Loudoun Counties and the city of Vienna, VA.
    Over the past decade, WASA has invested over $1 billion in 
various infrastructure improvements, taken steps to guarantee 
the region's safe drinking water, attained a AA bond rating, 
and ensured that the Blue Plains Wastewater Treatment Plant 
operated in compliance with all permit requirements. In other 
words, we have come a long way from the boiled water alerts of 
the mid-1990's.
    Despite the apparent progress WASA and its regional 
partners have made over the years, a number of issues, 
challenges, and concerns remain to be addressed.
    First and foremost, the subcommittee looks forward to 
receiving an update on WASA's lead service line replacement 
program and possible alternative approaches to reducing the 
leakage of lead into the drinking water supply.
    The Coalition of Parents for Non-Toxic Alternatives, the 
Alliance for Healthy Homes and Clean Water Action have pointed 
to ongoing shortcomings in WASA's management of the District's 
lead in water problem. I ask unanimous consent that their 
statement be entered into the record.
    Without objection, so ordered.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.001
    
    [GRAPHIC] [TIFF OMITTED] T6013.002
    
    [GRAPHIC] [TIFF OMITTED] T6013.003
    
    [GRAPHIC] [TIFF OMITTED] T6013.004
    
    [GRAPHIC] [TIFF OMITTED] T6013.005
    
    [GRAPHIC] [TIFF OMITTED] T6013.006
    
    [GRAPHIC] [TIFF OMITTED] T6013.007
    
    [GRAPHIC] [TIFF OMITTED] T6013.008
    
    [GRAPHIC] [TIFF OMITTED] T6013.009
    
    Mr. Davis of Illinois. With evidence of trace amounts of 
pharmaceuticals in the area's water supply and concerns over 
the health of local aquatic life, I anticipate that both the 
quality of the metropolitan area's drinking water and the 
condition of our area's waterways will be major topics of 
discussion this afternoon.
    Further, as part of a 10-year Capital Improvement Program 
[CIP], WASA has adopted an aggressive and somewhat ambitious 
time schedule for making these enhancements to the agency's 
aging infrastructure, equipment, and systems. Two of the most 
noteworthy Capital Improvement Projects currently underway 
include the combined sewer overflow project, a part of WASA's 
long-time control plan, and the Blue Plains total nitrogen 
program.
    It is my understanding that WASA and the Environmental 
Protection Agency [EPA] have been conducting ongoing 
discussions on how best to meet the Blue Plains' recently 
modified national pollutant discharge elimination system 
permit. The subcommittee looks forward to hearing about the 
outcome of recent negotiations on WASA's proposed plans for its 
Blue Plains total nitrogen program.
    Today's hearing will examine H.R. 5778, ``The District of 
Columbia's Water and Sewer Authority Independence Preservation 
Act,'' which would amend the D.C. Home Rule Charter Act to 
provide the legal authority for WASA to function as a fully 
independent authority by officially shifting oversight of the 
agency's financial operations and personnel matters to WASA's 
Board of Directors instead of the District of Columbia's chief 
financial officer.
    I thank you and I look forward to hearing the testimony of 
today's witnesses.
    I also ask unanimous consent that the statements of Ranking 
Member Marchant and full committee Member Tom Davis be entered 
into the record.
    Without objection, so ordered.
    [The prepared statement of Hon. Danny K. Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.010
    
    [GRAPHIC] [TIFF OMITTED] T6013.011
    
    [GRAPHIC] [TIFF OMITTED] T6013.012
    
    [GRAPHIC] [TIFF OMITTED] T6013.013
    
    [GRAPHIC] [TIFF OMITTED] T6013.014
    
    [GRAPHIC] [TIFF OMITTED] T6013.015
    
    [GRAPHIC] [TIFF OMITTED] T6013.016
    
    Mr. Davis of Illinois. I now yield to Ms. Norton for an 
opening statement.
    Ms. Norton. Thank you very much, Mr. Chairman. I 
particularly thank you for this hearing. When Representative 
Tom Davis was Chair of this committee we took to holding 
hearings on an annual basis, particularly after WASA had 
significant lead in the water problems.
    This is a hearing I can endorse. We do not have hearings 
here on District of Columbia matters because we are not the 
Council of the District of Columbia, but this is a hybrid 
agency if ever there was one. It is located in the District of 
Columbia. It has been a District of Columbia agency since it 
was established. Yet, serves the region, and the region pays 
for its services so it is appropriate that we have these 
hearings.
    Now, because it is classified as a D.C. agency, and should 
be, of course, the matter goes to the Council and the Mayor, as 
well, but it has always been treated as what it is: an agency 
that, yes, chiefly serves the District of Columbia, but it also 
serves neighboring counties, who also pay for the service, 
particularly the fewer services.
    Before I get to the real subject matter of this hearing, I 
would like to get to what the hearing is not about. The hearing 
is not about what you discussed, Mr. Chairman, because the 
matter that you clarified as to changes that I have agreed upon 
has been done. I think it is very important, when we get the 
cooperation of all of us concerned--that is certainly the way I 
deal with most Members of Congress, especially of the region--
that we make sure we always handle matters in that way.
    I do want to say that there was an attempt to put something 
on the D.C. appropriation. You are looking for a fight if you 
do that. If you have a problem with the District of Columbia, 
they could be wrong. I would be willing to negotiate with you, 
because if they are wrong I am going to tell them they are 
wrong. But the one thing I will fight you on is to change law 
by fiat by doing what, frankly, is not allowed, Mr. Chairman, 
and that is trying to change the law on an appropriation bill.
    I found a very effective partner, and I am not surprised, 
given the way in which he and I have always operated, that he 
and I could sit down and come to an agreement on this matter, 
and so I want to acknowledge and thank my good colleague, Chris 
Van Hollen, for the way he has worked with me constantly so we 
could solve this matter and it will not become a matter of 
contention. I think it ought to be handled in this hearing so 
that it does not become a matter of contention.
    It became clear to me in letters I wrote to the Mayor and 
to the Council, who have cooperated fully with me, that members 
of the Council, seeing that WASA, in particular, was a D.C. 
agency, began to treat it, or at least one or two members did, 
and then proceeded to treat it as if it were just another D.C. 
agency. Well, they were ignorant of some of the changes that 
Chairman Davis and I painstakingly negotiated when WASA got 
into deep trouble.
    So it seemed to me that the way to handle this was to, in 
fact, inform the Council of what had happened. Mr. Chairman, I 
wrote two letters and sent copies of this letter to the 
appropriate people in the region, the Representatives and 
others, Senate and House, one on March 14th and another on 
April 10th. The one on March 14th I actually released. I am 
releasing and asking that the two letters be put into the 
record. Another letter on April 10th, when it was clear that 
this matter had not been settled.
    To just read one sentence from the letter, I say, 
``Therefore, I ask the Council to move expeditiously in the 
Budget Support Act, using the emergency process to remove the 
provisions that affected the WASA personnel structure.''
    Mr. Chairman, this simply involves the fact that the 
District had no commuter tax, has many of its agencies with 
members from the region, and in its frustration sometimes tries 
to at least see to it that D.C. residents get jobs. That is not 
appropriate for an agency which is regional in its span.
    I want to thank Mayor Fenty and Chairman Vincent Gray for 
cooperating with me. In the Budget Support Act is an amendment 
to section 213 of the D.C. Code that removes any priority for 
any member of the region, including the District of Columbia, 
for jobs.
    Essentially, what has been agreed upon by the Member from 
Maryland, Mr. Van Hollen, and me is that these are matters for 
the Board. This is the status quo ante. If, in fact, you have a 
board that has members from three regions, you have something 
that is unusual in this country. It is sort of like the Metro 
Board, but it is sort of different, because Metro is not a D.C. 
agency. We have done a hybrid here and we have to make sure 
that we re-educate officials every so often, for example: new 
members of the Council as to how this works, because there is 
nothing quite like it.
    Therefore, we make it clear that it is the Board, not any 
jurisdiction, that is to decide matters affecting finances, 
procurement, and personnel. You can't have a regional agreement 
otherwise.
    I hope that this matter will not become any point of 
contention here because, in fact, we need to move on to what 
this hearing must be about. We have been doing an annual 
hearing on WASA, and the reason we had to do it on an annual 
basis is we discovered lead in the water led to a huge 
controversy. Several hearings were held here a few years ago 
when that happened. It led to really path-breaking hearings on 
lead in the water that alerted many other jurisdictions. The 
chairman, then Ranking Member Mr. Waxman, and I introduced a 
complete revision of the Clean Water Act that he had been 
responsible for, even before I came to Congress.
    This water still is controversial in the District of 
Columbia, and it is one of the most important things that we 
have to discuss in this hearing.
    We are going to be discussing both water and sewer 
services. We are going to be discussing what I think are really 
important questions raised by the decision of WASA, under 
pressure, to do partial replacement of lead pipes. When you 
replace a lead pipe on the public part, the part that the 
public controls, and yet the private citizen does not; there is 
still lead in the water.
    Meanwhile, the Aqueduct had to respond, as well, and we 
will be at pains to hear whether the new chemical in the water 
solves the problem for all intents and purposes.
    Beyond questions of safety for residents of the city and 
the region, I have a principal reason, as the lead sponsor of 
the Anacostia Watershed Initiative, which was passed last year 
as part of the Water Resources Development Act, and my own 
interest in broader efforts to green the District of Columbia 
and the national capital region. Indeed, tomorrow I am going to 
be holding a hearing in the subcommittee that I chair, first of 
a series on greening Washington and the national capital 
region, because the Federal Government has the largest 
footprint in this region, and therefore should be the leader in 
greening and energy conservation in a number of ways. We should 
be the leader for the rest of the country.
    Mr. Chairman, the Anacostia River matter is particularly 
important to members of the region. Actually, most of the 
Anacostia River is in Maryland. Most of the stuff that gets 
into the District of Columbia starts upstream. But they are our 
friends and we work together. Everybody in the region works on 
this bill, from Mr. Hoyer on down, if I may put it that way.
    But there is a special advantage to the fact that the 
District of Columbia has a part of the Anacostia. It has 
enabled me to go to the President of the United States, both 
Democratic and Republican Presidents, to get money put in the 
D.C. budget for the Anacostia River. That could not have 
happened, Maryland and Virginia but because our budget has to 
go to the President anyway, he normally adds a few dollars here 
and there. Most of the money I have been able to get came that 
way or from my membership on the Water Resources Subcommittee, 
where we have just gotten $35 million for upgrades and $20 
million to clean the Anacostia.
    This year the President responded by putting $14.5 million 
in the D.C. budget for combined sewer overflow, the major 
reason why the Anacostia is polluted, and he should have and 
the Water Resources Committee and Congress should have, because 
of Federal involvement in the pollution of the Anacostia. It is 
the Federal Government that is on the banks of the Anacostia. 
It is the Corps of Engineers who built the sewer system that is 
the problem in the first place.
    We just erected a new Department of Transportation that 
overlooks the stinking Anacostia River. We have just bought to 
the Navy Yard from Virginia, the Naval Sea Systems Command, to 
a renovated Navy Yard right there on the Anacostia. The 
original and most serious District side contamination came from 
the old Navy Yard. The Federal Government owes the region, and 
particularly this city, for the contamination that is there 
now.
    Yet, we have been unable to get long-term money for what is 
essentially a Federal problem. I am going to be seeking the 
help of other Members of the region.
    I note that in my own Water Resources Subcommittee there 
are members of the subcommittee who have been able to get 
authorizations for hundreds of millions of dollars at a time 
for combined sewer overflow, because this is a national 
problem. The difference between them and us is that the Federal 
Government had nothing to do with their combined sewer problem. 
They don't have a Federal river like the Anacostia, built by 
the Corps of Engineers. Yet, because of the way in which money 
gets distributed in this place, these people get hundreds of 
millions of dollars in order to deal with the problem, but we 
have not been as fortunate and the Anacostia is one of the most 
polluted rivers in the United States.
    So, Mr. Chairman, this is a hearing that we may be asking 
you to have on a regular basis, simply because, although the 
Council does have oversight, obviously Maryland and Virginia 
are not subject to their oversight. In fact, this matter was 
resolved continuing WASA as a D.C. agency only because then 
Chairman Tom Davis and I worked to get an amicable compromise. 
I believe that the agreement we have achieved between my good 
friend, Mr. Van Hollen, and me takes us back to the status quo 
ante, which is working quite well, thank you.
    Thank you very much, Mr. Chairman.
    Mr. Davis of Illinois. Thank you. Without objection, your 
request will be included in the record.
    Mr. Sarbanes.
    Mr. Sarbanes. Very briefly, Mr. Chairman, thanks for this 
hearing. I look forward to the testimony. I think Congresswoman 
Norton brings an extremely responsible perspective to the issue 
of the jurisdictional structure of WASA. Of course, she brings 
that regional perspective through the particular lens of the 
District of Columbia. I come to this discussion and the issue 
of the regional perspective through the particular lens of 
Maryland. I look forward to hearing from Congressman Van Hollen 
and hearing more about the balance that has been struck here.
    I would note that when we talk about the regional reach or 
effect or impact of WASA, it is not just the immediate region, 
because obviously there are impacts on the Chesapeake Bay and 
the wider region and I have that perspective, as well.
    Thank you.
    Mr. Davis of Illinois. Thank you very much, Mr. Sarbanes.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I want to thank 
you and the ranking member for holding this hearing on the D.C. 
Water and Sewer Authority and thank you for allowing me to join 
with you today.
    I do want to thank Congresswoman Norton for being such a 
constructive partner in this effort as we seek to resolve some 
of the issues that have already been discussed today.
    WASA, of course, has a regional impact, as you and others 
have noted. It affects a lot of my constituents, both as 
receivers of the services and also as employees and ratepayer. 
As Mr. Sarbanes has noted, it also has an impact regionally on 
the waterways, both the Potomac River, the Anacostia River, and 
also the Chesapeake Bay.
    I am pleased that we have been able to work together on a 
regional basis with respect to trying to get more Federal funds 
to clean up the Anacostia and the Potomac and the Chesapeake 
Bay. In fact, the Chesapeake Bay Watershed Task Force, which is 
made up of Members from the entire region, is fully supporting 
the request for the cleanup of the Anacostia, and we want to 
make sure that we get those funds.
    WASA has come a long way from the days of earlier 
environmental and financial mismanagement that plagued its 
predecessor agency. As I think has been noted by the chairman, 
the Blue Plains Wastewater Treatment Plant was continually 
cited by the EPA and the Justice Department for contamination 
of local waterways back before the regional authority was 
created. In addition, the Justice Department cited the former 
agency for diversion of $96 million in fiscal year 1995 from 
the operations and maintenance of this regional wastewater 
treatment center into the general fund of the District of 
Columbia.
    It was those problems and the misuse of regional user fees 
that led to WASA's creation in the first place, and it was 
largely due to the foresight of members of this committee--
Congresswoman Norton, Congressman Tom Davis--who crafted that 
earlier solution to this problem. They created WASA as a 
utility within the District of Columbia but with independent 
financial personnel and procurement operations authority to be 
governed by an independent board of directors.
    This board is comprised of members from each of the 
participating jurisdictions, from the District of Columbia, 
Maryland, and Virginia. In fact, the principal board members 
from each participating jurisdiction are the chief 
administrative officers from their respective localities, and 
we are going to be hearing from some of them later in today's 
hearing.
    The House Report 104-635 from this committee in 1996 
reflects the hard work of this committee and that of Ms. Norton 
and Mr. Tom Davis to establish WASA as an independent entity, 
and I request that it be included in the record today.
    [The information referred to follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.017
    
    [GRAPHIC] [TIFF OMITTED] T6013.018
    
    [GRAPHIC] [TIFF OMITTED] T6013.019
    
    [GRAPHIC] [TIFF OMITTED] T6013.020
    
    [GRAPHIC] [TIFF OMITTED] T6013.021
    
    [GRAPHIC] [TIFF OMITTED] T6013.022
    
    [GRAPHIC] [TIFF OMITTED] T6013.023
    
    [GRAPHIC] [TIFF OMITTED] T6013.024
    
    [GRAPHIC] [TIFF OMITTED] T6013.025
    
    [GRAPHIC] [TIFF OMITTED] T6013.026
    
    [GRAPHIC] [TIFF OMITTED] T6013.027
    
    [GRAPHIC] [TIFF OMITTED] T6013.028
    
    [GRAPHIC] [TIFF OMITTED] T6013.029
    
    [GRAPHIC] [TIFF OMITTED] T6013.030
    
    [GRAPHIC] [TIFF OMITTED] T6013.031
    
    [GRAPHIC] [TIFF OMITTED] T6013.032
    
    [GRAPHIC] [TIFF OMITTED] T6013.033
    
    [GRAPHIC] [TIFF OMITTED] T6013.034
    
    [GRAPHIC] [TIFF OMITTED] T6013.035
    
    [GRAPHIC] [TIFF OMITTED] T6013.036
    
    [GRAPHIC] [TIFF OMITTED] T6013.037
    
    [GRAPHIC] [TIFF OMITTED] T6013.038
    
    [GRAPHIC] [TIFF OMITTED] T6013.039
    
    [GRAPHIC] [TIFF OMITTED] T6013.040
    
    [GRAPHIC] [TIFF OMITTED] T6013.041
    
    [GRAPHIC] [TIFF OMITTED] T6013.042
    
    Mr. Van Hollen. Fortunately, those earlier problems that 
plagued Blue Plains are over and behind us; however, much of 
WASA's success can be attributed to the new regional authority 
and design that was established earlier by the work of the 
Congress to make sure that it is run as an independent, 
professional enterprise that is accountable to the entire 
region that it serves.
    It should be noted that the suburban jurisdictions of 
Maryland and Virginia contribute in excess of $100 million a 
year to WASA. It is important to ensure that sufficient 
controls are build into the system to prevent a future 
commingling of the funds between WASA's user fees and the funds 
of the participating jurisdictions.
    I believe, as Ms. Norton has said, that it is essential to 
WASA's continued success to maintain its regional autonomy.
    The Home Rule Act that established the District of 
Columbia's CFO has created ambiguity regarding the relationship 
between the WASA CFO and the D.C. CFO, and two recent 
enactments of the D.C. government served just to cloud the 
question of WASA's independence.
    I am pleased to have been working with Ms. Norton and Mr. 
Davis and others to resolve these conflicts and to ensure 
WASA's independence. I appreciate the letters and work of Ms. 
Norton and her communications with the D.C. Council in that 
regard.
    We need to put these conflicts regarding governance behind 
us so that we as a region are better able to confront the 
formidable undertakings that lay before us.
    As has been said, this subcommittee has had hearings on 
this subject in the past, and hopefully with the chairman's 
indulgence will continue to have them going forward to really 
address the very serious issues that confront WASA. But 
resolving this governance issue is essential to that success.
    WASA is currently contemplating massive upgrades to the 
region's sewage and wastewater treatment infrastructure. These 
are changes that are necessary to prevent raw sewage, in 
addition to nitrogen discharge, from contaminating our rivers 
and ultimately the Chesapeake Bay.
    In working with Ms. Norton and Mr. Davis and others, I have 
introduced a bill, H.R. 5778, that will clarify the 
independence of WASA's CFO and clarify WASA's personnel 
procurement and financial management powers and make it clear 
that they should be regulated by its regional board of 
directors.
    We look forward to working with the D.C. City Council to 
ensure that recently passed legislation that provides personnel 
preferences to D.C. residents does not apply in this regional 
organization, and look forward to continuing to work with them 
in this regard.
    I am looking forward to the testimony of the members of the 
panels that we are going to hear from today, and look forward 
to moving forward to address the important regional issues that 
we are going to be hearing about.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Chris Van Hollen follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.043
    
    [GRAPHIC] [TIFF OMITTED] T6013.044
    
    [GRAPHIC] [TIFF OMITTED] T6013.045
    
    [GRAPHIC] [TIFF OMITTED] T6013.046
    
    [GRAPHIC] [TIFF OMITTED] T6013.047
    
    [GRAPHIC] [TIFF OMITTED] T6013.048
    
    [GRAPHIC] [TIFF OMITTED] T6013.049
    
    Mr. Davis of Illinois. Thank you very much, Mr. Van Hollen. 
Without objection, your request will be included in the record.
    We will now move to our first witness. Mr. John Stephenson 
is the Director of Natural Resources and Environment Issues for 
the U.S. Government Accountability Office. Mr. Stephenson's 
work focuses on diverse environmental protection issues such as 
clean air, clean water, safe drinking water, safe chemical 
controls, toxic substances, climate change, Superfund, and 
hazardous materials' spill prevention and cleanup, as well as 
critical infrastructure protection.
    Thank you, Mr. Stephenson.
    It is our tradition that witnesses before the committee be 
sworn in.
    [Witness sworn.]
    Mr. Davis of Illinois. The record will show that the 
witness answered in the affirmative.
    Thank you very much, Mr. Stephenson, and we will proceed. 
Of course, you know that we try to do this in 5 minutes, and 
then we will have questions. We will use the light. Please go 
right ahead.

 STATEMENT OF JOHN B. STEPHENSON, DIRECTOR, NATURAL RESOURCES 
     AND ENVIRONMENT, U.S. GOVERNMENT ACCOUNTABILITY OFFICE

    Mr. Stephenson. Thank you, Mr. Chairman and members of the 
subcommittee. I am pleased to be here today to participate in 
this oversight hearing of the D.C. Water and Sewer Authority 
[WASA]. I will summarize GAO's reports on WASA's efforts to 
reduce lead exposure in drinking water, but I want to put my 
comments into context by summarizing other GAO work on the many 
challenges facing all large water utilities like WASA across 
the Nation.
    As we all remember, media reports in early 2004 about lead 
contamination in the District's drinking water raised serious 
concerns about the health risk posed from existing lead service 
lines and about how well local and Federal agencies were 
carrying out their responsibilities.
    After much debate, WASA ultimately signed a consent decree 
to improve water sampling, enhance public education, and 
identify and replace lead service lines. WASA undertook a $400 
million program to replace roughly 35,000 lines by 2016 and 
provided incentives to encourage homeowners to replace their 
portion of the lines. It also added orthophosphate to the water 
supply. This treatment causes the formation of a protective 
coating inside the lines that helps prevent lead from leaching 
into the water.
    So where are we today? WASA has replaced their portion of 
14,260 lead service lines through the first quarter of fiscal 
year 2008; however, of these, only 2,128 homeowners 
participated in the private side replacement. To be effective, 
homeowners must spend up to $2,500 to replace their portion of 
the lines, but most are, for a variety of reasons, deciding not 
to do so.
    Many questions remain about the benefits of partial lead 
service line replacement. Research suggests that short-term 
spikes in lead levels occur immediately after partial 
replacement, and little long-term reduction in lead levels is 
achieved. This, coupled with the fact that for the past 3 years 
the drinking water has consistently tested below the Federal 
action level of 15 parts per billion for lead in drinking 
water, largely due to the introduction of orthophosphate into 
the water supply in 2004, make it understandable why WASA, 
after spending $105 million on this program, is re-evaluating 
the merits of spending an additional $300 million to replace 
the remaining 21,000 service lines.
    As important as the lead contamination problem has been to 
WASA and its customers, it is by no means the only issue with 
which the utility must grapple. WASA is responsible for 
operation and maintenance of not only the drinking water 
infrastructure, but also the wastewater treatment and sanitary 
sewer systems. Some of the components of these systems date 
back to the early 19th century, and the infrastructure 
replacement costs are staggering. Over 700 million over the 
next 10 years to maintain the drinking water system, another 
2.2 million over the next two decades to meet the EPA's mandate 
to address combined sewer overflow problems, for example.
    WASA's difficulties in meeting its many fiscal demands are 
mirrored across the country by some 53,000 drinking water 
utilities, 17,000 municipal wastewater facilities, and 7,000 
communities served with storm sewer collection system. Water 
infrastructure needs nationwide are estimated to range from 
$485 billion to nearly $1.2 trillion over the next 20 years.
    A few years ago we conducted a survey over several thousand 
drinking water and wastewater utilities and found that 29 
percent of the drinking water utilities and 41 percent of the 
wastewater utilities were not generating enough revenue from 
user rates and other local sources to cover the full cost of 
service. We also found that about one-third of the utility's 
deferred maintenance because of insufficient funding had 20 
percent or more of their pipelines nearing the end of their 
useful life and lacked basic plans for managing their capital 
assets.
    The Federal Government has a significant impact on the 
Nation's drinking water and wastewater infrastructure. EPA has 
promulgated regulations to implement the Safe Drinking Water 
Act and the Clean Water Act, and the cost of compliance with 
these regulations are high.
    Last year Congress appropriated about $1.5 billion that EPA 
grants to the States to capitalize the revolving loan funds. 
Utilities can use these funds to finance improvements to 
drinking water and wastewater treatment facilities; however, 
this is only a small portion of what is needed.
    Some argue that because of the high cost of compliance with 
requirements the Federal Government should do more. Others 
argue that it is the customer who enjoys the benefits of clean 
water that should assume a larger share of the infrastructure 
repair and replacement costs by paying higher rates. The truth 
is probably somewhere in between.
    One thing is clear: the fiscal challenges facing water 
utilities are not likely to be resolved any time soon.
    Mr. Chairman, that concludes the summary of my statement. I 
will be happy to answer questions from you or any members of 
the subcommittee.
    [The prepared statement of Mr. Stephenson follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.050
    
    [GRAPHIC] [TIFF OMITTED] T6013.051
    
    [GRAPHIC] [TIFF OMITTED] T6013.052
    
    [GRAPHIC] [TIFF OMITTED] T6013.053
    
    [GRAPHIC] [TIFF OMITTED] T6013.054
    
    [GRAPHIC] [TIFF OMITTED] T6013.055
    
    [GRAPHIC] [TIFF OMITTED] T6013.056
    
    [GRAPHIC] [TIFF OMITTED] T6013.057
    
    [GRAPHIC] [TIFF OMITTED] T6013.058
    
    [GRAPHIC] [TIFF OMITTED] T6013.059
    
    [GRAPHIC] [TIFF OMITTED] T6013.060
    
    [GRAPHIC] [TIFF OMITTED] T6013.061
    
    [GRAPHIC] [TIFF OMITTED] T6013.062
    
    [GRAPHIC] [TIFF OMITTED] T6013.063
    
    [GRAPHIC] [TIFF OMITTED] T6013.064
    
    [GRAPHIC] [TIFF OMITTED] T6013.065
    
    [GRAPHIC] [TIFF OMITTED] T6013.066
    
    [GRAPHIC] [TIFF OMITTED] T6013.067
    
    Mr. Davis of Illinois. Thank you very much.
    I will go to Ms. Norton first.
    Ms. Norton. Thank you very much, Mr. Chairman.
    I found your report from GAO, Mr. Stephenson, very helpful.
    Mr. Stephenson. Thank you.
    Ms. Norton. It gives us some context. Above all, without 
saying so, you make clear we are dealing with a zero sum gain 
here, particularly in your discussion of new chemicals in the 
water versus WASA's present strategy. At the hearings we had, 
the question was already raised, and I could never get an 
answer to it, and that question was: if you can only replace 
the public portion of the lead pipe, is there substantial 
benefit?
    Mr. Stephenson, I am co-sponsor with the chairman of the 
full committee of a bill that would require the replacement of 
the public portion. A couple years ago I began to wonder 
whether that made any sense, in light of what I know as a 
member of the Water Resources Subcommittee about the needs that 
you just described.
    In your testimony you indicate that the water now tests, 
and you say because of orthophosphate which has been 
introduced, that for that reason that the water supply ``has 
enabled WASA to consistently test below the Federal action 
level.''
    The question, it seems to me, in light of the competing 
water needs of this and other jurisdictions, the question for 
me is whether it makes financial or health sense for large sums 
of money to go to replacing only the public portion, without 
any assurance that the private portion would be replaced. Let 
me ask you whether it would make sense if the homeowner said, 
here's my money for the private portion, as well, I still would 
ask whether that is the best place to put the money--you know 
what the long-term problems of WASA and combined sewer overflow 
are--in light of the health effects or benefits of relying only 
on orthophosphate to do the job?
    Mr. Stephenson. It is a multi-part answer, I guess. The 
only thing that has changed really is the orthophosphate, and 
it takes several months to years for that to become effective, 
and so that is why I attribute the success in meeting lead 
level standards to that.
    Ms. Norton. Could I just pause and ask you: have the 
effects been shown? You are certainly not the first and 
certainly not the only to use this particular chemical. Have 
beneficial effects been shown more definitively in other water 
supplies?
    Mr. Stephenson. Yes. It has been shown definitively in many 
public water supplies around the country. By the same token, 
research suggests that partial lead line replacement offers 
very little benefit, if no benefit, to the objective of getting 
lead out of the drinking water. It is obviously the ultimate 
solution to----
    Ms. Norton. And that is in part, is it not, Mr. Stephenson, 
because not only do you leave part of it with the lead still 
flowing into the household, but, in order to do the work of 
cutting the pipes, you disturb even more lead, which may stir 
up lead that might not have flowed from the public section in 
at all if you would just let it be and rely on the chemical?
    Mr. Stephenson. Right. There are generally spikes in the 
lead levels right after you perform the replacement. So I would 
suggest that it has to be carefully evaluated in light of all 
of the other fiscal needs that a big water company like WASA 
faces. They get precious little money from the revolving funds 
from either the Clean Water Act or the Safe Drinking Water Act. 
The needs are great and the Federal funding that follows that 
is not very great.
    Ms. Norton. Well, suppose the private homeowner said, I 
want mine replaced. Does that justify the public expense, in 
your judgment?
    Mr. Stephenson. We think that is still the best solution, 
and that does make sense.
    Ms. Norton. That is the best solution even if it stirs up 
lead to have the public and the private replacement?
    Mr. Stephenson. In the long run, yes, it is better to get 
rid of the lead service lines, but it is a very expensive 
undertaking, $300 million.
    Ms. Norton. So it may fail a cost/benefit test, but it may 
be that if you were doing the Cadillac approach that is what 
you would do?
    Mr. Stephenson. Exactly.
    Ms. Norton. You have looked at the needs of WASA. Pretty 
staggering. I have described my attempts to get money, and we 
get a little bit of money, but you see it is a little bit of 
money every year that we have gotten. We haven't gotten 
hundreds of millions of dollars at one traunch that other 
jurisdictions have, and I must tell you that while we are on 
pay-go I can't promise that we are going to do that, whatever 
the Federal involvement in this particular water system is.
    By the way, anyone that goes to the White House and into 
Federal buildings, I guess they are all drinking bottled 
water--watch out for those bottles--in order to assure their 
health, but, of course, there are many in the region who rely 
upon the water. I have news for Members of Congress and people 
who go to restaurants and the White House: some of that water 
gets into your food. They are not taking water out of the 
bottles and cooking with it. Of course, we know it has its 
greatest affect on children and babies and pregnant women.
    But let me ask you, having looked at the many needs, pretty 
Herculean needs of the supply here and WASA, how would you 
categorize, how would you prioritize if you were king for a day 
where you would start, since you have already testified you 
wouldn't start here, because you don't see the cost/benefit.
    Mr. Stephenson. We haven't done a detailed study of WASA, 
per se. My experience is more with facilities like WASA around 
the Nation. But you would have to weigh the merits of each and 
every expenditure. WASA, itself, is estimating $3.1 billion in 
capital improvement programs over the next 10 years, I believe. 
That is $310 million a year. So how do you allocate that? They 
have huge expenses associated with the Blue Plains facility to 
reduce nitrogen. They have the combined sewer overflow program, 
which is estimated at $2.2 billion over the next two decades, 
let alone just normal replacement of pipes.
    Ms. Norton. The reason I am indicating that there is no 
need here, I am doing what Congress does and saying, you know, 
either we are going to give you money for this or we are not. 
In light of what you just said, that those are the needs that 
you described, is there any other alternative for those needs? 
At least we have the chemical alternative here. For the needs 
you have just described, providing sewer overflow and the rest, 
is there a substitute that we could rely on for those needs, 
even as you have testified the chemical has been definitively 
shown to be effective in other jurisdictions, even as there may 
be a substitute for requiring change in the public portion of 
the lead pipe?
    Mr. Stephenson. Again, we haven't studied that 
specifically, but for the combined sewer overflow, for example, 
I mean, you need huge capital expenditures to be able to build 
the facilities that you would need to handle combined sewer 
overflow in a wet weather event. So the alternative is to 
pollute the Anacostia River, if you don't address that.
    Ms. Norton. So essentially you are testifying there really 
isn't any other way to deal with combined sewer overflow, for 
example, or with the long-term control plan other than to deal 
with it. There is no substitute here or anywhere else. We are 
just spending the money there where there may be, may be a 
substitute for spending the money on the lead pipe, 
particularly when the private portion is left intact.
    Mr. Stephenson. That is true. The only question is where 
the money will come from.
    Ms. Norton. Thank you very much, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    Mr. Sarbanes, any questions?
    Mr. Sarbanes. Not at this time.
    Mr. Davis of Illinois. Mr. Van Hollen.
    Mr. Van Hollen. No, Mr. Chairman. Thank you for the report 
though. I think it raises some important questions.
    Mr. Davis of Illinois. Mr. Cummings.
    Mr. Cummings. I don't really have any questions, Mr. 
Chairman.
    Mr. Davis of Illinois. Let me just ask one. I was struck by 
the amount of money that you expressed a need for. How do you 
see this in relationship to the needs of water systems across 
the country?
    Mr. Stephenson. It is very similar. As I said, the total 
estimates that aren't GAO's but are prepared by the 
Environmental Protection Agency and many of the water industry 
associations who do this for a living, are in hundreds of 
billions to a trillion dollars over the next several years. 
Obviously, the Federal Government isn't going to pay for all of 
that. The ratepayer has to pay for some of that. But there 
needs to be a balance.
    WASA, itself, estimates that about 45 percent of their 
capital improvement is to respond to Federal requirements.
    Mr. Davis of Illinois. So any way you cut it, we are going 
to need a lot of money?
    Mr. Stephenson. Yes.
    Mr. Davis of Illinois. Well, thank you very much. We 
appreciate your being here.
    Mr. Stephenson. You are welcome.
    Mr. Davis of Illinois. We will proceed to panel two, our 
second panel. While they are being set up let me just introduce 
them.
    Robin Martin is the current Chair of the D.C. Water and 
Sewer Authority's Board of Directors representing the District 
of Columbia, and Mr. Martin has served in this capacity since 
May 2, 2007.
    Mr. Jerry Johnson is the general manager of the District of 
Columbia's Water and Sewer Authority. As the first general 
manager of WASA, Mr. Johnson has guided the unrated agency with 
a projected $8 million deficit to an organization with an A-
plus credit rating and $170 million reserve, all within a 2-
year period.
    Gentlemen, would you join us. While you are doing that, why 
don't I just go ahead and swear you in.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Gentlemen, we thank you very much for being here. Of 
course, we try to do this in 5-minute spurts. If you would 
summarize your statement in 5 minutes, the entire statement is 
in the record.
    We will begin with you, Mr. Martin.

 STATEMENTS OF ROBIN B. MARTIN, CHAIRMAN, BOARD OF DIRECTORS, 
  D.C. WATER AND SEWER AUTHORITY; AND JERRY JOHNSON, GENERAL 
            MANAGER, D.C. WATER AND SEWER AUTHORITY

                  STATEMENT OF ROBIN B. MARTIN

    Mr. Martin. Thank you, Chairman Davis and members of the 
subcommittee, for this opportunity to testify.
    My name is Robin Martin. I am a private citizen, a resident 
of the District of Columbia, and I have honored to have been 
appointed by Mayor Adrian M. Fenty to be the chairman of the 
Board of Directors of the District of Columbia Water and Sewer 
Authority.
    D.C. WASA was created in a compromise requiring foresight 
and leadership. I will share briefly my views about our 
opportunities and challenges.
    The Board of Directors is working very hard with management 
to build on past successes. One key objective is to allow the 
average citizen to turn on the tap and drink the water with 
confidence. I am pleased to report to this subcommittee that 
our water is safe to drink.
    Distributing drinking water is a critically important 
mission, having been the subject of hearings before this 
subcommittee. To strengthen the oversight of this critical 
mission area, I recently appointed Dr. Joseph Cotruvo to Chair 
the ad hoc Committee on D.C. Drinking Water Quality. His 
experience will prove invaluable.
    We must continue to maintain our distribution system and to 
strengthen our relationship with the U.S. Army Corps of 
Engineers' Washington Aqueduct, which provides drinking water 
treatment services. Most of our consumers and many policymakers 
are unaware of the bifurcation in the District's drinking water 
treatment and delivery system.
    The most controversial problem in D.C. WASA's history was a 
drinking water quality issue, the exceedance of the Lead and 
Copper Rule lead action level. The Board's lead service 
replacement program grew out of these issues in 2004.
    These experiences provided lessons which the Board and 
management have taken very seriously. Among the most prominent 
is the importance of transparency. As the D.C. WASA Board began 
to explore publicly the merits of potentially modifying the 
ongoing lead service replacement program last year, we have 
once again been subjected to criticism from certain advocates 
and to some negative media coverage, as well.
    However, there is ongoing dialog with the public about a 
path forward, and for some stakeholders the issue remains D.C. 
WASA's credibility, but for most it is reaching an 
understanding of what constitutes safe water and ensuring its 
delivery.
    We have an obligation and an interest in protecting the 
environment, particularly the Anacostia and Potomac Rivers, 
Rock Creek, and the Chesapeake Bay. We are proud to be in the 
forefront of these efforts.
    D.C. WASA is investing enormous sums to restore and 
preserve waterways. While I have confidence in management, it 
is the Board's responsibility to ensure that these large 
projects--over $2 billion for the long-term control plan and 
nearly $1 billion for the Chesapeake Bay nitrogen removal 
program--are well-planned, executed, and financed.
    We must also provide strategic guidance to management in 
its negotiations with the Environmental Protection Agency to 
ensure that these programs are technically achievable and 
affordable for all our customers.
    Congress and the administration have been strong partners 
in these efforts, providing, for example, in excess of $100 
million in funding for the long-term control plan. We want to 
continue this partnership, which is critical to our success.
    In 2007, the District Council charged D.C. WASA with 
engaging an independent consultant to review the budget to find 
ways to contain rising retail rates and to review capital 
improvement plan disbursements and the financial plan. The 
Board enthusiastically supported this review, and the report 
found that D.C. WASA compares favorably in a variety of 
categories when benchmarked against other utilities.
    The independent review of the budget is one step along a 
long path we are taking to try to ensure that our development, 
planning, and execution of operations and the capital program 
are as effective and efficient as possible. We recently learned 
that Standard & Poor's has awarded D.C. WASA an unsolicited 
bond rating upgrade. In this difficult financial environment, I 
regard the upgrade as an endorsement not only of D.C. WASA's 
performance, but of its governing board and management. 
Nevertheless, the Board has the responsibility to ensure the 
continuing financial health of D.C. WASA to enable it to 
maintain, rebuild, and upgrade the aging infrastructure so 
vital to the provision of our services.
    The Board is also committed to maintaining fairness and 
equity in our retail rate structure. For example, we are now 
developing an impervious surface area rate to allocate more 
equitably the cost of the long-term control plan to the users 
who actually produce the stormwater runoff that contributes to 
the combined sewage overflows.
    D.C. WASA has earned a positive reputation in the industry 
for its financial management, administrative prowess, research, 
capital program planning, development, and project management 
and execution. We still face major challenges, but we have a 
solid foundation on which to build.
    Thank you, Mr. Chairman and Members, for this opportunity 
to address the subcommittee. I would be happy to respond to any 
questions.
    [The prepared statement of Mr. Martin follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.068
    
    [GRAPHIC] [TIFF OMITTED] T6013.069
    
    [GRAPHIC] [TIFF OMITTED] T6013.070
    
    [GRAPHIC] [TIFF OMITTED] T6013.071
    
    [GRAPHIC] [TIFF OMITTED] T6013.072
    
    Mr. Davis of Illinois. Thank you very much, Mr. Martin.
    We will proceed to Mr. Johnson.

                   STATEMENT OF JERRY JOHNSON

    Mr. Johnson. Thank you, and good afternoon, Chairman Davis 
and members of the committee. I am Jerry Johnson, general 
manager of the District of Columbia Water and Sewer Authority. 
I appreciate the committee's interest in receiving an overview 
and update on D.C. WASA.
    I would like to start by briefly noting a few recent 
positive developments.
    On March 13th I had the pleasure of submitting to the D.C. 
WASA Board of Directors the 11th consecutive unqualified audit 
opinion for the year ending September 30, 2007. A clean audit 
is nothing less than our stakeholders deserve, and we should be 
providing it as they expect it.
    With respect to the bottom line, fiscal year 2007 ended 
with revenues exceeding expenditures by approximately $23 
million, and with cash reserves in excess of the board's 
required 180-day operating and maintenance cost of $111 
million. Those excess funds were used for pay-go and for rate 
stabilization fund.
    Mr. Martin mentioned the unsolicited bond upgrade, but I 
would like to point out that a portion of our outstanding debt 
issuance has included bonds known as auction rate securities. 
As you may know, under the current credit market conditions, 
these securities have experienced volatile interest swings. We 
took actions to refund the outstanding auction fund debt, 
eliminating the risk of our overall operating costs. The 
largest portion of this refunding, $310 million, has been 
successfully offered in the marketplace and will close at the 
end of this month at a fixed rate of 4.89 percent, which is 
about outstanding, given the circumstance that many 
jurisdictions face in not being able to get rid of those types 
of securities.
    Mr. Chairman, in 2007 the District of Columbia Council 
budget legislation included a provision directing the Board of 
Directors to engage with an independent consultant to review 
the budget and certain aspects of the capital program. The 
Board commissioned the review even before the law was enacted. 
The report offered several recommendations, including, for 
example, continuing our effort to build internal staff capacity 
to manage and utilize costly commodities like electricity and 
chemicals.
    Overall, the consultant stated, ``D.C. WASA is a high-
performing water and sewer utility with good management 
practices which are, in some cases, best in class, and one of 
the best-kept secrets on the east coast.''
    By way of background, WASUA, D.C. WASA's predecessor 
agency, operated as an enterprise fund, and revenues from that 
were segregated from the local government's general fund. As 
you may recall, in the late 1980's and 1990's the District of 
Columbia experienced significant financial challenges, and the 
District made use of approximately $85 million of WASUA 
enterprise funds for pay-go government expenses. It is 
important to note that these funds have since been repaid, but 
at a time the District-wide hiring freeze, long deferred 
maintenance, capital improvements, the water distribution 
system and wastewater collection system, and treatment systems, 
and a 10-year hiatus in adjusting the rates to collect revenues 
needed to operate and upgrade the system alternative came 
together in a giant crash.
    The demand for prudent utility operations prompted in 1996 
the District of Columbia, the participants in the Blue Plains 
service area, and the U.S. Congress to agree to create the 
District of Columbia Water and Sewer Authority, an independent 
agency of the District of Columbia.
    Many policymakers took part in the negotiations, but 
Congresswoman Eleanor Holmes Norton's leadership in that effort 
was critical in building the foundation for the organization's 
success that exists today.
    In celebrating our 10th anniversary, I noted that I 
believed that a model for regional cooperation was created, and 
it stands today for others to emulate.
    D.C. WASA's enabling legislation also provided that the 
agency would have procurement, personnel system that were 
separated from the District, along with independent authority 
to establish policy in those areas. The enabling statute also 
granted D.C. WASA's board the authority to issue debt. Since 
1996, D.C. WASA's board of directors has been solely 
accountable for the hiring of financial management staffs, 
setting financial policies, developing and adopting the 
organization's financial plans and practices, setting fees and 
charges, adopting annual operating and capital budget, the 10-
year capital and financial plan, as well as setting rates.
    As one of the larger utilities in the United States, D.C. 
WASA has two critical missions: those of purchasing drinking 
water from our partner agency, the U.S. Corps of Engineers, and 
distributing it to 130,000 or so customers in the District of 
Columbia; and also for collecting and treating sanitary flow 
that is discharged into the Potomac River, and for producing 
about 4,400 tons of bio-solids per month for the land applied 
in the Commonwealth of Virginia.
    D.C. WASA is one of the strongest environmental stewards in 
the region, investing hundreds of millions of dollars in 
improving water quality in the Anacostia, Potomac, and the 
Chesapeake Bay. We are in compliance with all MPDES permit 
requirements. We are also in compliance with the Safe Drinking 
Water Act and all standards pertaining thereto,.
    With respect to capital improvements, WASA is responsible 
for the operation of utility plant assets in excess of $2.2 
billion. For example, the Blue Plains Wastewater Treatment 
Plant, perhaps the largest in the world, streaming capacity of 
370 million gallons a day. We are very proud of the national 
reputation that we have achieved there.
    But we are also responsible for thousands of miles of 
underground infrastructure, as was mentioned by the 
representative from GAO, with a number of hydrants, valves, and 
other larger facilities.
    Since D.C. WASA was created in 1996, we have invested over 
$1 billion in capital improvements. Through 2016, D.C. WASA 
plans to spend an additional $3.1 billion in capital assets. 
This substantial increase as compared to last year's investment 
of $2.2 billion for the capital improvement program is mandated 
by the U.S. EPA as benefiting the Chesapeake Bay.
    Specifically, roughly $900 million of increase is almost 
driven entirely by the Blue Plains total nitrogen project. This 
investment is required to meet the new Federal nitrogen limits 
imposed for the discharge at the Blue Plains Wastewater 
Treatment Plant. We estimate that fully 45 percent of the CIP 
that is currently in place is required by regulatory mandates.
    There are a number of other projects that are listed in the 
testimony that you have received, so I will not go into all of 
those, but we have made a commitment of $636 million over the 
next 10 years to maintain and enhance the water quality 
throughout the capital and improve operations in our water 
distribution system, and another $150 million going to the 
Washington Aqueduct for projects that will be undertaken there.
    We have also undertaken a comprehensive sewer assessment 
program in the District that spanned about 5 years that will 
result in major capital projects that we will have to 
undertake.
    I would be remiss if I did not note and express our 
appreciation for the Federal funding support that we have 
received since 2003. We have received about $106 million in 
Federal support of the $2.2 billion long-term control program 
to reduce combined sewage overflows into the Anacostia, Potomac 
Rivers, and Rock Creek. We have matched this extraordinary 
level of funding with 100 percent of local funds, principally 
from District ratepayer.
    Ms. Norton, you have been a leader, and it is once again 
that you have provided that extraordinary leadership in helping 
to obtain these funds, and we are truly gratified that you and 
other Members of Congress from around the region, like 
Congressman Van Hollen, have joined in seeking additional 
support under WRDA and additional resources to support the 
massive capital programs. With congressional support, we have 
already eliminated 33 percent of CSOs. By the end of 2008 we 
will have reduced it by 40 percent.
    The continuing challenge is that it will require nearly a 
decade and a half and an additional $2 billion to complete the 
project, and continuing Federal commitment is critically 
important for the District of Columbia.
    Building on industry leading automated systems and 
technology, we have begun installing a high-tech system that 
allows us to notify our customers when there are problems with 
the water bills, and we are able to do that in advance.
    I would also like to salute the Board's leadership that has 
resulted in a focused and long-term commitment to improving 
operational efficiency, which is important to our customers as 
we continue to rebuild aging infrastructure.
    Mr. Chairman and Members, D.C. WASA has evolved from a 
troubled beginning to become a respected and responsible 
forward-looking utility poised to successfully meet the 
challenges of the future. We have moved from crisis to 
stabilization to stability.
    Thank you for giving me this opportunity to give the 
committee an overview of D.C. WASA and its operations. I will 
be happy to respond to any questions you or members of the 
committee may have.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.073
    
    [GRAPHIC] [TIFF OMITTED] T6013.074
    
    [GRAPHIC] [TIFF OMITTED] T6013.075
    
    [GRAPHIC] [TIFF OMITTED] T6013.076
    
    [GRAPHIC] [TIFF OMITTED] T6013.077
    
    [GRAPHIC] [TIFF OMITTED] T6013.078
    
    [GRAPHIC] [TIFF OMITTED] T6013.079
    
    [GRAPHIC] [TIFF OMITTED] T6013.080
    
    [GRAPHIC] [TIFF OMITTED] T6013.081
    
    [GRAPHIC] [TIFF OMITTED] T6013.082
    
    [GRAPHIC] [TIFF OMITTED] T6013.083
    
    Ms. Norton [presiding]. I thank both of you, Mr. Johnson 
and Mr. Martin, for that important and indispensable testimony 
to this hearing.
    Now, if I may say so, count yourself lucky and the District 
unfortunate that this is not a vote in the committee, as a 
whole, the only House vote on which I can cast a vote for the 
District of Columbia, so my colleagues, including the Chair, 
had to go to vote, and your humble Member is left here, much to 
her regret, with all apologies to you that she cannot do the 
important work of casting a vote for the residents of the 
District of Columbia. We are only three votes short in the 
Senate. That is the place where you need 60 votes. That is how 
you get a majority there. It is the only place that a majority 
is defined by more than 51 votes.
    That said, the chairman, if he were here, would have asked 
a question that is prescient inasmuch as I would have asked it 
if he hadn't, and he asked how many District residents are 
waiting a full-pipe replacement. How many are awaiting that in 
the District of Columbia, full pipe? Full pipe--that must be 
you get some kind of guarantee that they are going to do the 
other or they pay you to do both at the same time? Is that how 
it works?
    Mr. Johnson. Before we begin in a neighborhood to do the 
lead service line replacements, Ms. Norton, we will notify the 
residents and provide them with at least a 45-day lead time and 
an opportunity to replace the private portion while we are 
replacing the public portion.
    Ms. Norton. Sir, I am just trying to find out how that 
works. Do they have to do that first?
    Mr. Johnson. No, ma'am. We will do all of the work first 
using our----
    Ms. Norton. So how do you know they will do it? Do they 
then remit an amount to you to do it and then you decide to do 
the private and the public all at the same time?
    Mr. Johnson. We have several different options for 
approaching that. One, they can set themselves up on a payment 
plan with the water and sewer authority. We have also made 
arrangements through Wachovia Bank for a discounted rate loan 
that can be made to our customers, and we work with the D.C. 
housing----
    Ms. Norton. Thank you. I didn't hear a payment plan here, 
but I appreciate that detail. What I really want to know is how 
many residents are awaiting full-pipe replacement and decided 
to invest in that measure, which you heard from the previous 
witnesses, is the best way to remove lead from the water?
    Mr. Johnson. Yes, ma'am. I cannot give you a going-forward 
number. The number to date has been somewhere around 23 percent 
of the total----
    Ms. Norton. That is 23 percent of what, sir?
    Mr. Johnson. Of the total number that we have done public 
side replacements. It is a rolling number because we are 
constantly sending----
    Ms. Norton. The number I am asking for wasn't rolling at 
all. I am just asking how many have contacted you to say they 
want to do full-pipe replacement. Do you have that figure?
    Mr. Johnson. To date it has been about 22 percent of the 
14,200 and some that we have done.
    Ms. Norton. So of those that have already been done, 14 
percent of the replacements, the others have been public-side 
replacement only?
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. You heard my questions to the GAO, pretty 
definitive, that replacement on one side may do more harm than 
good, but that replacement of both is the top of the mark, the 
gold standard. Do you have consultants that indicate to you 
that partial replacement, in light of the alternative, is not 
the best option for WASA?
    Mr. Johnson. I believe, Ms. Norton, that any lead that is 
removed certainly has some benefit, but in a case where you 
only replace a part of the lead service line and you still have 
quite a bit remaining----
    Ms. Norton. Have you a consultant that says if you do 
only--there will be others after you. Perhaps they can testify 
to this, too. You say any removal. Well, the testimony before 
you was that it was a no statistically significant effect.
    Mr. Johnson. That is correct.
    Ms. Norton. I hate to ask these questions in this way. 
Remember, I am the one who cosponsored a bill to say do the 
whole thing, and if you can't get the private sector to do it, 
go do it anyway, public sector. But I also am contending with 
your competing priorities, and I can tell you this without fear 
of being contradicted: every single bill that goes to the House 
of Representatives is a pay-go bill, and it is going to be that 
way for eternity because of the huge increase in the deficit 
that we have built up in the last 8 years with the war and with 
tax cuts for wealthy people, so we are left in this zero sum 
gain notion of what are the priorities.
    If you had to answer the same question that I gave to the 
GAO, ranking, what would be the most important place to put 
money to have the greatest health affect and the greatest 
effect on the region? What would be first for you or, for that 
matter, for the Board, Mr. Martin?
    Mr. Martin. Let me try to answer that question. I think one 
of the things that we are attempting to answer is the question 
of whether, if there are no replacements whatsoever, public 
side or private side, if orthophosphate is sufficient to 
provide clean drinking water, and the tests that we have so far 
show that we are below the lead action level. So that would 
seem to appear to us that, in fact, would be the case.
    Ms. Norton. Well, more important than that, the GAO said it 
has been definitively shown in other jurisdictions, which use 
orthophosphate for a far longer time than we have.
    Mr. Martin. Right.
    Ms. Norton. Again, you know, this is what is going to 
happen in the Congress. You can't get a bill through here for 
the gold standard, so the first thing one has to do--I have 
already spoken to the chairman about this, and he said he would 
get the Chair to look at it, because he has been the standard 
bearer of this, and I joined him enthusiastically, and have not 
been convinced yet that we should change the bill. But I must 
say that the more the evidence rolls in--I continue to be an 
academic, teach one course every year, as I did before I came 
to Congress, and it is very hard for me, in the face of 
evidence that there is a cheaper way to do it, to say keep 
replacing the public portion. I have a problem with that.
    This is a free society. You can't make somebody change the 
private portion. One could, of course, say you must change them 
when the other side, the private side, says, I want them 
changed. Of course, still the money is coming from the 
taxpayers, so it is still not a free lunch. If they wanted to 
say, OK, I will pay for changing the public and the private, 
that is another story.
    For myself, I want to say right here, you know, the pipes 
that most interest me are the pipes that we found during the 
controversy in D.C. public schools. Those are pipes I am 
interested in, and those are pipes which you go to the fountain 
and there was a concern about lead. We dealt with that in part 
through other means. Can you assure me that when you turn on 
the water fountain in every D.C. public school and every part 
of the region that may be served, that you will not get out of 
those pipes from that water fountain lead-contaminated water?
    Mr. Martin. Ms. Norton, I think one of the issues is that 
even if the public side and the private side of the lead 
service line are replaced, there are still fixtures within a 
home, within a building, within a school that may contain lead 
fixtures. So the issue that----
    Ms. Norton. And you think that might be the case in public 
schools?
    Mr. Martin. It very well could. Yes.
    Ms. Norton. This is what Democrats got accused of, spending 
money no matter what the effect. We refute that more often than 
not, but I am looking here for the evidence, the facts. As they 
say, nothing but the facts.
    My major concern, when you get to be as old as most of the 
people in the room, the fact is the evidence is that lead has 
less and less affect, and the great and horrific concern in the 
District was with pregnant women and with children of school 
age, and most particularly elementary school age, but yes, all 
children who are still in formation of their brains and other 
body structures.
    In 2008 there was tap water that appeared to implicate as 
the source of lead as a problem for 15 percent of children in 
the District of Columbia who had elevated lead, blood lead 
levels, whose water was actually tested for lead. Yet, you both 
have claimed that the District's water is safe to drink. How 
can we accept that testimony in light of these tests that were 
dong?
    Mr. Johnson. I can't say that I am familiar with those 
tests and how they were conducted.
    Ms. Norton. It was from the D.C. Department of Environment 
reports. It is a report from the District of Columbia 
Department of Environment, 2007-2008, which reported that tap 
water was, indeed, implicated as a source, apparently not the 
only source, as a source of lead for 15 percent of D.C. 
children. I will have to ask them the extent to which the 
report showed that lead in the water, but apparently it did 
show that lead in the water was a source for these children, 
for 15 percent of these children whose drinking water had 
actually been tested for lead.
    Mr. Johnson. Ms. Norton, I am not a health expert and I 
don't think that I would----
    Ms. Norton. But you did tell me that the District's public 
water was safe to drink.
    Mr. Johnson. And I will stand behind that statement and 
will certainly----
    Ms. Norton. I am going to make available to you this 
report.
    Mr. Johnson. OK.
    Ms. Norton. I can't believe that somebody in WASA hasn't 
seen it or at the Aqueduct, and I am going to ask you in 30 
days to comment on the question I just asked about this 15 
percent of the children who were actually tested. And I am the 
first to understand the lead may have come from multiple 
sources. I had a discussion with someone recently who told me 
that they were winning lead cases in court.
    I said, how can you be winning lead cases brought by 
children? This young man was one of my students when I was a 
full-time professor of law at Georgetown and he's very much 
about my politics. He works for a big law firm now. He said, 
because of cause and effect, the source problem becomes a very 
big problem, given the children who have lead and the varied 
sources of contamination.
    I am very evidence-oriented. I questioned him, I cross-
examined him. He said they were winning cases in Mississippi. I 
don't know if you know the storied Mississippi juries which sit 
in order to award money to deep pockets.
    Anyway, I asked this question not because I preclude an 
answer one way or the other, but because this report was done, 
and we will make available to you the report.
    Many of us saw the outcry about the lead in the water, Lead 
and Copper Rule compliance, but because they did not include 
measurements that were taken in between late May and early July 
in 2006 and 2007. Because you are trying to regain the public 
trust, I wonder why those months would have been excluded 
rather than simply explained perhaps?
    Mr. Johnson. That is simply not the case, Ms. Norton. I 
think that we have documentation of the time of year----
    Ms. Norton. You took measurements between late May and 
early July? Did you make them public?
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. This is a period when lead in the drinking 
water has been documented to reach its peak. That is why I am 
asking the question.
    Mr. Johnson. Yes. We have the documentation of the times 
and dates that we did all of the sampling. It was done in 
strict compliance with the EPA requirements for sampling and 
identifying the evidence.
    Ms. Norton. Did you make those public right away, the rate?
    Mr. Johnson. Sure. They have been made public.
    Ms. Norton. No, right away.
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. Mr. Johnson, within 30 days would you get your 
compliance with the Lead and Copper Rule during the months I 
have just described in 2006 and 2007, that is between May and 
early July, and offer evidence that you informed the public?
    Mr. Johnson. I am told that we do the testing in January 
through May. June is the reporting month, and we begin to start 
again in July.
    Ms. Norton. I am talking about 2006 and 2007. I don't want 
to quibble here. Just get it to me.
    Mr. Johnson. Sure.
    Ms. Norton. And then get me how you informed the public.
    Apparently there were errors made in your--I recall this 
very distinctly--your 2006 post partial pipe replacement data. 
Which lab made those errors?
    Mr. Johnson. As I recall, I don't believe that there was a 
laboratory error; I believe that there was a dating error that 
confused the date that the sample was actually taken, versus 
the date that the sample was analyzed. That information, the 
way it was represented came out as an error. And we used two 
laboratories, and we are determining now which one of them made 
the error.
    Ms. Norton. I ask this question because when it was known 
that I would have this hearing residents of the District of 
Columbia asked me, because they say they have been unable to 
get this information from you about the lab, and if it wasn't 
the lab error and it was the date, apparently this matter was 
raised in a meeting with Council Member Jim Graham on February 
24, 2008, and then a written inquiry was sent. These people 
watch you all after lead in the water.
    Mr. Johnson. We are putting that data together now, and in 
terms of----
    Ms. Norton. Would you make it available to Council Member 
Graham and would you make it available to me within 30 days?
    Mr. Johnson. Absolutely. But it simply was not available, 
so we couldn't actually give it to the----
    Ms. Norton. Why wasn't it available?
    Mr. Johnson. Because we have to go back and determine where 
the error was made.
    Ms. Norton. You are talking about 2006, and people are 
still giving me that question here in April 2008. A written 
inquiry was sent to D.C. WASA on April 6, 2008. I raise this 
question because it is not a quibble because you have to 
respond to members of the public like a first priority, again 
because the public lost confidence. You have done a great deal 
to try to regain that confidence. Nothing can do it better than 
saying, look, here is what the real deal is, or, it will take 
us time to gather that information. Here is a date when it is 
going to be there.
    Mr. Johnson. I think that we have advised them that it was 
going to take some time to pull the data together. We have two 
sets of data, one set of data that is compliance data that we 
provide to the EPA and is posted on the Web site and is out 
there, and then we have some other data that we are just 
collecting in order to satisfy ourselves that we are doing the 
appropriate thing.
    Ms. Norton. Or to satisfy the residents that you are doing 
the appropriate thing, and that is what they wanted to know. 
This is a date, for goodness sake. How long does it take to 
find out?
    Mr. Johnson. We are researching it. It is a very recent 
issue.
    Ms. Norton. Two years of research? You can't afford that, 
Mr. Johnson and Mr. Martin. That is your job. Remember, I sat 
here and said, yes, it is not Congress' job, it is your job. I 
am going to hold you accountable too, sir.
    Mr. Martin. Right. I agree.
    Ms. Norton. I have a problem that I remember raising in the 
first hearings that lead and copper pipes join together. Here 
is where science and follow-through and being willing to change 
or not change based on the science is so important. You put the 
lead and the copper together and you accelerate the lead 
erosion. There is a device which we understand is inexpensive 
called a dielectric. Apparently, you do not use dielectrics.
    Mr. Johnson. That is correct.
    Ms. Norton. If you do use dielectric in order to keep from 
extending and accelerating lead pipe erosion, this is your time 
to inform the public.
    Mr. Johnson. Ms. Norton, the acceleration of corrosion 
depends on a number of factors, and it is not just whether you 
connect a lead and copper pipe together. It depends on soil 
conditions and a number of other factors, and----
    Ms. Norton. Mr. Johnson, that----
    Mr. Johnson. That is simply not correct, the information 
that you have.
    Ms. Norton. Let me just stop you here with respect to 
answers to our questions.
    Mr. Johnson. OK.
    Ms. Norton. You notice that I am not looking for zero in 
terms of what science can provide. I have talked about the gold 
standard, and I have been real clear I know nobody is going to 
get the gold standard. Now you are trying to tell me other 
sources. I am asking a direct question about mitigation here 
through the use of dielectric, inexpensive device. Do you or do 
you not use it, yes or no?
    Mr. Johnson. We do not.
    Ms. Norton. Why do you not use it?
    Mr. Johnson. Because we don't believe, in these soil 
conditions and with the pipe that we are putting together, that 
it is necessary.
    Ms. Norton. So you think that there is no acceleration and 
extension of lead corrosion, and you have evidence to prove 
that?
    Mr. Johnson. Yes, we do. We have an EPA report and study 
that was done that looked very specifically at this issue, and 
it indicated that there was a minuscule----
    Ms. Norton. So putting lead in cooper is OK?
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. All right. Submit that report within 30 days. 
You are under oath.
    Mr. Johnson. We will do that.
    Ms. Norton. You are under oath. Both of you are. So if 
there is a mistake, admit it, but don't tell me unless you can, 
in fact, back up what you say. I ask some of these questions 
because the public has not been able to get answers to them.
    Mr. Johnson. I am very mindful of that.
    Ms. Norton. Apparently this was a question that was 
submitted long ago, and according to the information my staff 
has gathered was a very exact date on February 21st. Again, at 
Council Member Graham's meeting an engineer did finally admit 
that WASA had never used dielectrics. You say it was because 
they were unnecessary. Last thing I am going to do is say spend 
money on something that you don't have to spend money on. I do 
note that this is inexpensive, and since it is inexpensive and 
most of what you have to do is not, would you also submit the 
cost of it?
    Mr. Johnson. Sure.
    Ms. Norton. I am told it is inexpensive. I don't want to 
hold anyone to that.
    Mr. Johnson. Along with other information related to other 
problems that it can cause by using that particular device.
    Ms. Norton. Will you say that again? I am sorry.
    Mr. Johnson. There are other associated problems with 
grounding of electricity within a residence that are caused by 
the use of that device, as well.
    Ms. Norton. Would you explain that, please? In other words, 
there is a harmful effect, you are testifying?
    Mr. Johnson. Yes.
    Ms. Norton. And that would be?
    Mr. Johnson. Well, because houses are typically grounded 
using the water pipe, and when you do this disconnect with the 
dielectric and the copper and lead fitting, it could very well 
break that ground and create electrical problems within the 
home. I will be glad to provide you with the research data 
associated with that, as well.
    Ms. Norton. I would appreciate that within 30 days, as 
well.
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. Here is an opportunity for you to explain 
something that I think is important for the public to know, and 
that is, when you increase the rate structure, a lot of it has 
to do with the surface, impervious surface rate structure, and, 
just to be as clear as I can without getting into technical 
matters, those large buildings are often the source of these 
impervious land structures, and so the water flows into the 
Anacostia and they cost and they increase pollution.
    Let me see if I can find a neutral way to say this. Who in 
this region would be the No. 1--don't use the word villain, 
Eleanor--who would be the No. 1 land owner who is the source of 
the problem or problems from impervious surface runoff?
    Mr. Johnson. Our initial look, it appears that the Federal 
Government probably owns the largest number of square feet of 
impervious cover.
    Ms. Norton. And I think you are certainly right. You heard 
me indicate I am having a hearing even tomorrow. We were going 
to call you to that hearing, but it seems unnecessary to do 
that, especially with your coming today. I know that the rate 
structure is being increased. Are you saying that the largest 
increase will come, because the Federal Government is a 
ratepayer, to the Federal Government?
    Mr. Johnson. I think the largest shifting of cost will 
occur in the Federal customer category.
    Ms. Norton. What does that mean?
    Mr. Johnson. We are not adding additional cost; what we are 
doing is unbundling the basic sewer charge as it currently 
exists, because it is all based on a volumetric charge now, so 
you will----
    Ms. Norton. But I thought there were going to be rate 
increases.
    Mr. Johnson. Well, the rate increase, which is projected at 
8.5 percent, and a portion of that----
    Ms. Norton. That was 8.5 percent?
    Mr. Johnson. Yes, ma'am. A portion of that is water and a 
portion of that is sewer. On the sewer charge what we are 
attempting to do is take out the cost that is associated with 
the long-term control plan and segregate that, so instead of 
there being an 8 percent rate increase, it would probably be 
something on the order of a 3 to 4 percent rate increase on the 
sewer side, and we would collect the balance of that in this 
impervious area surface charge.
    Ms. Norton. And that will be charged to he or she who is 
responsible for it?
    Mr. Johnson. That is what we are moving toward. Yes, ma'am. 
If you looked at a family of four in a house where they are 
washing and cooking and bathing and doing all the things that a 
family normally does, and they are paying their water and sewer 
charged based on the volume of water that they use, so we base 
how much you are going to pay for your sewer cost on the number 
of gallons of water you use. And you look across the street and 
let's say that there is a large big box store and that big box 
store has 300,000 square feet under roof and two or three acres 
of parking, and maybe only one or two toilets inside, then 
their volumetric charge is going to be disproportionate to that 
of the family of four.
    So what we are trying to do is equalize this so that the 
cost causers are the ones that are paying for the actual cost 
of this particular program, so that the single family----
    Ms. Norton. Then I don't understand why this has been 
controversial. Do people understand? Will the average homeowner 
get a rate increase? Perhaps a rate reduction?
    Mr. Martin. Ms. Norton, I think the issue is that this is a 
new rate. It is a change in every customer's bill. Part of our 
program from the Board's perspective is to make sure that we 
explain this in a very transparent way so that people 
understand exactly----
    Ms. Norton. Well, Mr. Martin, will there be an increase to 
the average homeowner?
    Mr. Martin. We don't have the impervious surface rate 
actually defined at this point because we are still working on 
it, but the preliminary numbers say no, probably not. When you 
add up the water rate by volume, the sewer rate by volume, and 
the rate for impervious surface, it is probably about the same, 
a few pennies one way or the other. That is the preliminary 
data. Let me not say that is----
    Ms. Norton. I know this is hard to explain, because when 
you get into what most of us--certainly I didn't know anything 
about this division of cost or that it was all bundled. I am 
sure this is going to be hard to explain. When will you know 
for sure?
    Mr. Johnson. There are some new customers, too. There are 
people who have typically not been a customer, people who own--
--
    Ms. Norton. Like who?
    Mr. Johnson [continuing]. Parking lots and parking decks 
who don't get a water bill.
    Ms. Norton. How in the world could they not have been 
customers?
    Mr. Martin. They don't have water service.
    Mr. Johnson. They don't have water service, so they are not 
getting----
    Ms. Norton. They don't have any water service in a parking 
lot of any kind?
    Mr. Johnson. In a flat surface parking lot, typically no.
    Ms. Norton. Unless they are part of a building.
    Mr. Johnson. Right. And so those are customers that will be 
added. I can't say that they will be coming on willingly.
    Ms. Norton. When will you be able to definitively--you did 
the right thing to get out here early and alert people, but, of 
course, in the 15-second ad atmosphere and all of us are too 
busy, this is seen by some, I think, as a rate increase. Mr. 
Martin has offered very helpful and important testimony that it 
probably isn't, given who the source of the problem is.
    When, Mr. Martin or Mr. Johnson, will you have a definitive 
answer?
    Mr. Martin. We have proposed rates as of earlier this year 
that are----
    Ms. Norton. Well, they were a rate increase.
    Mr. Martin [continuing]. Combined rates. They were combined 
rates that are not unbundled.
    Ms. Norton. Why would you do that? If you are trying to 
unbundle, why would you alarm people by giving them all a rate 
increase?
    Mr. Martin. Because that rate increase is probably going to 
reflect in their total bill, that same rate increase. In other 
words, we have a 10-year plan that----
    Ms. Norton. You just said that there would not be a rate 
increase for the average homeowner. I asked you that.
    Mr. Martin. That is the total average bill for a homeowner. 
What we proposed back in February would reflect an 8.5 
increase. When we unbundle it and then add up what the average 
homeowner would get, it will be about 8.5 percent with 
everything added up together.
    Ms. Norton. All right. For the record, there will be an 
increase to everybody?
    Mr. Martin. Yes.
    Ms. Norton. Unbundling only lets you know how much of it 
comes from your impervious land, and there will be an increase 
because of the CSO, isn't it, because of combined sewer 
overflow?
    Mr. Martin. In part, correct.
    Ms. Norton. I just think you have to be candid with people. 
There is no free lunch. And if you are trying to make the 
increase fall more on those who are most responsible, say that, 
but if you have to increase everybody's water rate tell them 
why. There is concern about water purity here. If you tell them 
why, I think people really are willing to pay.
    This is hard to explain, but remember it was the 
explanation of lead in the water that led to issues for WASA 
before.
    Now, these water rates apparently are not progressive. You 
may have read in the Post, I guess it was, in recent days that 
one-third of families in the District of Columbia are poor. Why 
should a poor family pay the same water rate that Eleanor 
Holmes Norton and Jerry Johnson and Robin Martin pay?
    Mr. Martin. Ms. Norton, I think that is a very good 
question, and that is something that, since I have been on the 
Board, has been on the top of mind of every District member 
whose responsibility is to make sure that not only do we have 
as reasonable rates as possible, but that they are affordable.
    My feeling as Chair in navigating through the rate 
structure is that we need to get the impervious surface rate 
introduced, and that the next project after that is to, in 
fact, look at our rate----
    Ms. Norton. After the poor people have already paid, then 
look to see whether or not. Then, of course, you don't give 
them back any money.
    Mr. Martin. We have to understand the issues that are 
involved in terms of making sure the public is aware of the 
issue----
    Ms. Norton. Mr. Martin, look, let me suggest something. 
Part of the problem for poor people is they often don't own the 
property. Calculating in some fashion--this is not rocket 
science--how much of what you pay comes from the price of 
water, as it were, is kind of elementary math. I am trying to 
keep these people from being socked in the middle of one of the 
worse recessions anyone can remember, and I don't think, given 
the fact that you have a pretty hefty raise, and you say 
everybody is going to have it, 8.5, I am going to have it and 
the poor lady down the street is going to have it, I must ask 
you if you are, in fact, going to put this rate on people, why 
you can't do the climate changes or a rebate? I don't even want 
to suggest. There are a thousand ways to say to a poor person 
you don't have to pay the same amount as Robin Martin does.
    In the District of Columbia we are famous for rebates of 
various kinds to poor people. We have done it with taxes here. 
There are multiple ways to go about this, but if you lost your 
job and that is what we have now, if you have no sub-prime 
mortgage but you are feeling all of the reverberations of the 
present recession, all you need is an 8.5 increase, which 
landlord, assuming you do not own the property, will be happy 
to pass along to poor tenants.
    So I am asking a very serious question here. I am not 
questioning the need for an increase. I don't think you are 
trying to throw rates at people. I am such a big proponent of 
doing something about combined sewer overflow. I think you are 
trying to hold the Federal Government and other big landowners 
in the way they should, but I don't see that you--in fact, you 
have testified that you will get to the poor people after they 
have already been socked with 8.5, because first you have to do 
the rate increase. You have already announced that. Then you 
have to do the unbundling, then you will get to them. Of course 
by then nobody is saying, here's your money back. Last time I 
saw an agency do that I cannot remember.
    So I have to ask you why you cannot do it, or, put another 
way, why you cannot walk and chew gum at the same time.
    Mr. Martin. Ms. Chairman, I think we are. And let me 
correct my statement before. I think I was responding to a 
question about the rate structure. There are two programs that 
WASA has had for a number of years that, in fact, address that 
exact question. One is called the splash program, in which we 
solicit from ratepayer and billpayers voluntary contributions 
which we then distribute to people who are in need. We have a 
customer assistance program which is tied in through the other 
utilities where----
    Ms. Norton. Well, the one-third of families who will be hit 
with an 8.5 increase in their water bill have access or get a 
rebate through--is it a rebate they get? Is it a lower rate?
    Mr. Martin. Go ahead, Jerry.
    Mr. Johnson. In the case of the cap program, the first four 
CCFs, or about 3,000 gallons of water----
    Mr. Martin. What's a CCF?
    Mr. Johnson. A CCF is 748 gallons of water, so about 3,000 
gallons of water is provided at no cost to low-income customers 
in the District of Columbia.
    Ms. Norton. How do you know if a low-income customer is 
getting that?
    Mr. Johnson. We do it the same way that the power company 
and the LIHEAP program. If you qualify for LIHEAP----
    Ms. Norton. Oh, so you could do this easily? You already do 
it?
    Mr. Johnson. Yes.
    Mr. Martin. We do it.
    Ms. Norton. OK. So the answer to my question that is are 
you willing to do this--I will call it a rebate. You can call 
it what you like--with one-third of working families who are 
poor in the District of Columbia with respect to this 8.5 
percent increase in the water rate? Can they be included? You 
are telling me that some of them are already included. Are you 
not, or are you? Are they already included?
    Mr. Johnson. Yes.
    Mr. Martin. Some of them are, certainly.
    Mr. Johnson. Yes.
    Mr. Martin. Absolutely.
    Mr. Johnson. Those same people who would quality for the 
LIHEAP program would qualify for this same discount, and it is 
run by the same people who run the program for----
    Ms. Norton. All right. Unfortunately we have a terrible 
period here. There are all kinds of people not in the LIHEAP 
program. My question to you is: will families who can 
demonstrate that they are poor--and you know what that standard 
is--be eligible--this would be on an annual basis. This is not 
forever--be eligible for this reduction, not just a LIHEAP 
family, the family who worked yesterday and is not working 
today. Will that family, if that family submits evidence that 
they don't have a job, have no means to pay for an increase, 
will that family be eligible for what you are telling me you 
already do for poor people?
    Mr. Martin. That is not something that is in the policy at 
this point. We have been reviewing both the CAP program and the 
splash program because one of the things that we are finding is 
a lower participation rate than we think is appropriate, or 
reflects what the needs are of the community.
    Ms. Norton. So you prove my point. You have plenty of room 
left in that program.
    Mr. Martin. But we are attempting to figure out why people 
aren't participating. We think more people ought to be 
participating and qualified to participate.
    Ms. Norton. I am scratching my head. OK. Given the fact 
that you already have some people who are not participating, 
how about those who would like to participate as soon as the 
8.5 increase goes into affect? Is there any reason why that 
would be inappropriate, Mr. Martin?
    Mr. Martin. Ms. Norton, we would have to define what the 
qualifications are to be----
    Ms. Norton. You already know what they are. You just 
testified.
    Mr. Martin. Well, if they qualify----
    Ms. Norton. You just testified that LIHEAP----
    Mr. Martin. Yes.
    Ms. Norton. The qualifications are defined as poor under 
the Federal Government's standards. I mean, we really shouldn't 
answer me that way. If you don't know or you are unwilling, you 
are not going to get away with that kind of answer to me, Mr. 
Martin. I am asking you a straight-out question. In the middle 
of what some people are defining as a recession--I certainly 
would not like to use that word--added on to the problems 
people are already having with bills for necessities such as 
water and heat, if there are such families and a third of them 
in the District of Columbia are poor, I am sure I speak for my 
colleagues when I speak of those who are poor in their 
jurisdictions, will you take an already existing program and 
make it available to families who, when this program goes into 
affect, cannot pay 8.5 using the same evidence and proof that 
you use on LIHEAP program?
    Mr. Martin. Absolutely. If they qualify under LIHEAP, they 
will qualify here.
    Ms. Norton. So I don't know what took us so long to get to 
that answer. I tell you what, you said if they qualified for 
LIHEAP but are not in LIHEAP----
    Mr. Martin. No, no. I misunderstood your question. The 
answer is, of course.
    Ms. Norton. OK. They are not in LIHEAP, but they would 
qualify under LIHEAP or the appropriate standard, then they 
could, in fact, get this reduction?
    Mr. Martin. Yes. Absolutely.
    Ms. Norton. I don't know why you didn't say that in the 
first place.
    Mr. Martin. I misunderstood the question. It is my error.
    Ms. Norton. My fault then. Sorry, I will try to be clearer.
    Mr. Johnson. Ms. Norton, I think that one thing we keep in 
mind as we go about doing these programs is that the only 
source for payment are the other customers, so we are, in 
essence----
    Ms. Norton. Have you ever heard of progressive taxation?
    Mr. Johnson. Yes, ma'am.
    Ms. Norton. Have you ever heard of the earned income tax 
credit? At the big dollars we are paying you, Mr. Johnson, 
shouldn't you be paying more than people who are now on the 
earned income tax credit?
    Mr. Johnson. I fully understand what you are saying. I just 
want to make sure----
    Ms. Norton. There have been people who tried to repeal 
progressive taxation here. They haven't quite succeeded, 
notwithstanding tax cuts for the richest Americans. So yes, 
there is a shift of cost. That is why you pay more Federal 
income taxes than the poor people I am talking about.
    Mr. Johnson. I know. I had the experience yesterday.
    Ms. Norton. And why you should. You make a handsome living 
compared to people who are going from hand to mouth.
    I am almost through. Huge controversy about nitrogen and 
how you are handling nitrogen. You and I have worked together 
on trying to get the nitrogen out of the water. I go every year 
to try to get more and more money. Then I find you working at 
cross purposes with me. Scientists now say we won't reach our 
goal in reducing nitrogen by the date we had set, 2010. Do you 
agree?
    Mr. Johnson. That is correct.
    Ms. Norton. Why would you pursue in court or other legal 
strategies in the face of evidence about WASA's practices, for 
example, EPA regulators just this last month--and EPA will tell 
you they are not my favorite people--rejected, that is to say 
its Environmental Appeals Board, your arguments regarding 
nitrogen were rejected, and I understand they have been 
rejected twice.
    I understand you have yet another appeal going forward. Why 
are you resisting what the EPA says are your obligations to 
pursue efforts to reduce nitrogen, one of the most lethal and 
dangerous pollutants? Why are you going to court against the 
regulators or otherwise pursuing legal remedies through the 
administrative process when the regulators keep giving you the 
same answer and you tell me yourself that by 2010 you are not 
going to meet the goal that has been set for you to meet?
    Mr. Johnson. Well, let me start. I think that is a multi-
part question, Ms. Norton. Let me start with the 2010 piece of 
it first.
    Simply because of the time that it takes to design, 
construct, and build these facilities, it is literally not 
physically possible to get it done by 2010. I mean, we have 
to----
    Ms. Norton. Is that the argument that you are making, that 
it is just a time factor?
    Mr. Johnson. I am trying to answer the question in 
segments, if I may.
    That is the question with respect to timing. We have worked 
with the Environmental Protection Agency and worked with them 
on the technical and engineering side to understand that there 
is a timeframe in which we can complete this, and we have 
agreed tentatively that we can accomplish the construction of 
some $950 million worth of facilities between now----
    Ms. Norton. Say that again, please.
    Mr. Johnson. $950 million worth of facilities that have to 
be constructed at the Blue Plains Wastewater Treatment Plant.
    Ms. Norton. Why did you file another protest on April 1st?
    Mr. Johnson. I am going to come to that part. So we have 
agreed on a date that we can get everything constructed. 
Assuming EPA approval of the plan, we could get it constructed 
by 2014, and that by 2015, January 2015, we would be in 
compliance. So that is getting everything in the ground.
    Ms. Norton. Did you say EPA has agreed to that?
    Mr. Johnson. Yes.
    Ms. Norton. Why are you filing an appeal then?
    Mr. Johnson. The appeal has to do with some of the 
technical aspects of the plan. One has to do with a Federal 
consent decree and the method by which they wanted to include 
the dates and timeframes for getting it done.
    Ms. Norton. Well, shame on you. You have a Federal consent 
decree, so you would think that you would know you had to do 
that anyway.
    Mr. Johnson. Well, if we----
    Ms. Norton. If you signed it, that is what a consent decree 
is.
    Mr. Johnson. The consent decree has to do with the combined 
sewer overflow project, not the total nitrogen project. We----
    Ms. Norton. And you don't see the two as related, 
intimately related?
    Mr. Johnson. They are related, but that, too, took a 
considerable amount of time working with EPA to convince them 
that we ought to look at the two projects together, as opposed 
to having a stovepipe over here for CSO and another one over 
here for total nitrogen, and it took some time to convince them 
that, from an engineering and environmental----
    Ms. Norton. All right. If you convinced them, why are you 
appealing?
    Mr. Johnson. OK. I am coming to that.
    Ms. Norton. April 1st you filed another appeal.
    Mr. Johnson. So we joined. We were on the same side as the 
Chesapeake Bay Foundation in saying, put it in the permit, 
because that is the simplest, easiest, quickest way to get it 
done, and that is where the EAB ruled. They said yes, it should 
be included in the permit, so we were right on that point.
    The other point that we appealed had to do with the 
allocation of nitrogen for the wastewater treatment plant, and 
the allocation we believe was not done on a scientific basis, 
and as a result we have had certain portions of our allocation 
for the Blue Plains plant that has been allocated to both 
Virginia and to Maryland. We are simply trying to recover that 
so that we get the full benefit of all the allocation that we 
should get at the plant.
    Ms. Norton. Are you telling me that EPA would object to 
your recovering that from Maryland and Virginia?
    Mr. Johnson. Well, I mean, that is what the allocation 
appeal is all about. That is what the basis of it is. It is a 
very----
    Ms. Norton. Why did EPA object to where you get the 
recovery from?
    Mr. Johnson. I think you would have to ask. There are some 
representatives here.
    Ms. Norton. You know why. They would not tell you by fiat 
without telling you why, Mr. Johnson. You can't come here and 
testify to something like that and say, oh, I don't know. You 
have to ask them.
    Mr. Johnson. Ms. Norton, I----
    Ms. Norton. You know. They told you why.
    Mr. Johnson. I do not know. We firmly believe that----
    Ms. Norton. Did you ask them?
    Mr. Johnson. They said they have a right to do it.
    Ms. Norton. Right to do what?
    Mr. Johnson. To move the allocation from Blue Plains to 
Maryland for the plants in Maryland. We think that allocation 
is rightfully ours.
    Ms. Norton. I want to thank both of you for your testimony.
    Mr. Johnson. It is a very complex issue. It also has to do 
with reordering the way that we operate the wastewater 
treatment plant, and in reordering the way that we operate the 
wastewater treatment plant there are a couple of outfalls there 
that are designated for different purposes. And if a certain 
loading requirement is placed on one versus the other, then it 
creates a whole different scenario in the way that we operate 
both the CSO control program and the nitrogen program.
    And let me say that, in working with EPA and getting them 
to agree on this change in technology and the way that we are 
operating the plant, we were able to save our ratepayer, both 
in the District of Columbia and the surrounding jurisdictions, 
over $500 million.
    Ms. Norton. You know, Mr. Johnson, I commend you on that. 
One of the things I most admire is negotiating out matters. A 
lawyer though I be, I hate litigation as a way, a most 
expensive way, to settle matters. Your testimony seems to be, 
see, we were able to set without, and yet you have a string of 
protests and other challenges to EPA where they and you end up 
coming to some resolution. I particularly applaud you when you 
come to resolutions that save money.
    On the other hand, do not expect me to be a continuing 
partner working my you know what off over here for more funds 
for WASA if WASA is working at cross purposes with me by 
opposing a regulator who I do not regard as very strict.
    Mr. Johnson. I assure you----
    Ms. Norton. I mean, we took them to task on lead in the 
water more than we did you.
    Mr. Johnson. I assure you, Ms. Norton, that we are not 
working at cross purposes and that we are working diligently 
with EPA in order to try to resolve the outstanding issues. We 
have met with them as recently as last week, last Wednesday, 
and I believe that substantial progress was made at that 
meeting. We have already moved forward to--I don't want to 
admit this in front of Mr. Capacasa, but we have already 
prepared the documents to go out to bid for the project 
management and designer on the project. So we are moving the 
process forward, even though we have not gotten final approval 
from EPA on the design plan. And we will continue. We are very 
diligent and serious about the project.
    Ms. Norton. Mr. Martin and Mr. Johnson, because we try to 
have these on an annual basis, we are going to ask you 
difficult questions. We don't have endless hearings. I think 
that the region has indicated some confidence in your work with 
some real caveats. We understand the huge cost and cost/benefit 
problems you face in trying to decide what to do. We have 
straightened out some of your business very recently.
    And I do want you both to know that, speaking from the 
perspective of someone who saw the decline, fall, if not the 
collapse of WASA, at the time we essentially built a new basis 
for the WASA you, yourself, Mr. Johnson were chiefly 
responsible for improving, speaking from the perspective of 
knowing from whence you started at ground truly zero or below 
to where we have come today, you deserve some credit.
    Do expect that this committee will and intends to do annual 
oversight, and I do ask you this: when people do not get 
responses quickly to WASA, they call their Congresswoman. And 
particularly when they can't get responses through their 
Council member, like Jim Graham, they have to go to somebody 
else. I have enough work. So, just as I said that you should 
get responses to me within 30 days, I ask you--and I don't want 
to set the time period--to remember that, as part of restoring 
trust in WASA, a WASA that you had no part in collapsing, part 
of restoring trust in it, may be the most important thing you 
could do would be responses very quickly to questions that are 
asked, particularly since you seem to believe you have the 
answer.
    If you do not have the answer, Members of Congress find, 
because people often come to us with things--it is not our 
jurisdiction, we can't do anything about it. You know, the very 
fact that we responded promptly, heard them out, told them what 
our problem is gives people lots of confidence in their Member, 
which is how they get elected.
    I suggest that imitating that would erase some of the 
controversy that continues to swirl among some with respect to 
some of your work.
    Congratulations on the work you have done. You will find us 
standing behind you with the job that lies before you.
    Thank you very much.
    Mr. Martin. Thank you very much.
    Mr. Johnson. Thank you, Ms. Norton.
    Ms. Norton. Panel three, Joe Capacasa, I think, Director of 
Water Protection Division for the Environmental Protection 
Agency in Region III, responsible for the Clean Water Act, safe 
drinking water programs here and in the mid-Atlantic States. 
Thomas Jacobus, general manager of Washington Aqueduct. Doug 
Siglin, director of Federal Affairs, Chesapeake Bay Foundation. 
Robert Boon, co-founder, Anacostia Watershed Society.
    Would you all stand, because it is the committee's policy 
that all witnesses are sworn in.
    [Witnesses sworn.]
    Ms. Norton. The record will show that each witness answered 
in the affirmative.
    Your entire statement will be recorded in the record. The 
green light is there to indicate that your 5 minutes have 
passed. The yellow light, of course, is a warning light, and 
the red light tells you the time has expired. We don't gavel 
down witnesses, but you see the hour and how we certainly had 
to question the last witnesses, so that we ask you to stay to 
the greatest extent possible within the timeframes allowed.
    Mr. Capacasa.

  STATEMENTS OF JON M. CAPACASA, DIRECTOR OF WATER PROTECTION 
  DIVISION FOR WATER, ENVIRONMENTAL PROTECTION AGENCY; THOMAS 
  JACOBUS, GENERAL MANAGER, WASHINGTON AQUEDUCT; DOUG SIGLIN, 
FEDERAL AFFAIRS DIRECTOR, CHESAPEAKE BAY FOUNDATION; AND ROBERT 
         BOONE, PRESIDENT, ANACOSTIA WATERSHED SOCIETY

                  STATEMENT OF JON M. CAPACASA

    Mr. Capacasa. Thank you, Madam Chair and members of the 
committee, for the opportunity to update you on our activities 
at EPA with regard to WASA.
    I am Jon Capacasa. I work in the Region III office of EPA 
in Philadelphia. I am the Director of the Water Protection 
Division there and am pleased to be here today.
    EPA's Region III's role in relation to WASA is to serve as 
the Clean Water Act permitting and enforcing agency in D.C. and 
as the primary enforcement agent for the Federal Drinking Water 
Act.
    In addition to our regulatory role, we administer the clean 
water and safe drinking water State revolving fund funding 
programs in D.C., manage special appropriation projects for 
capital improvements, and work in partnership with local 
utilities to protect regional water quality.
    We are in frequent contact with D.C. WASA, and also in 
close cooperation with the D.C. Department of Environment, as 
well as D.C. government and other regional water utilities.
    Regarding the quality of drinking water services in 
District, D.C. WASA and the Washington Aqueduct report directly 
to EPA Region III on the results of the sampling analysis they 
do, and these results are audited periodically.
    Based on this information, EPA can report that the drinking 
water serving the District of Columbia meets all Federal 
health-based standards and the system is in compliance with all 
national primary drinking water regulations.
    A requirement of EPA regulations is that utilities notify 
their customers annually through something called a consumer 
confidence report about the quality of water served and its 
compliance status for regulated parameters. The latest consumer 
confidence report was submitted to EPA and the public by WASA 
in June 2007 and has been provided to the committee for your 
use.
    D.C. WASA reports that the D.C. water system has been at or 
below the action levels for lead and copper under the lead and 
cooper regulation for three consecutive years since the report 
in early 2005. The latest report submitted to EPA by WASA 
states that the 90th percentile of over 100 samples taken was 
10.9 parts per billion below the action level of 15 parts per 
billion or greater under the Federal rule.
    The D.C. water system is now meeting the requirements of 
the Lead and Copper Rule such that additional lead service line 
replacements are no longer required, in accordance with Federal 
regulations.
    This spring EPA will conduct a triennial inspection of the 
water distribution system in the District, and we will continue 
to coordinate research on planned and potential water treatment 
changes at the Washington Aqueduct.
    With regard to wastewater controls on the wastewater 
regulatory front, EPA issues and ensures compliance with Clean 
Water Act permits in the District. Such permits are issued to 
D.C. WASA for operation of the Blue Plains facility and for the 
control of combined sewer overflows into local rivers.
    In April 2007 EPA issued an amended Clean Water Act permit 
to D.C. WASA which incorporates new limits for nutrient 
reduction to the Potomac River and Chesapeake Bay. Blue Plains 
is the largest point source of nutrients for the bay. I would 
like to point out that WASA has already achieved the 2010 
Chesapeake Bay program load cap for phosphorus reductions, and 
the new nitrogen limit of no more than 4.6 million pounds 
annually will require a substantial upgrade to the facility.
    In 2007 WASA developed a total nitrogen wet weather plan 
for the Blue Plains facility to meet the new nitrogen limit. 
WASA presented that plan to EPA and we have commented on it 
extensively. The submitted plan involves major modifications to 
the Blue Plains facility and to the previously approved wet 
weather plan for control of combined sewer overflows.
    Given the complexity and extent of this major capital 
project, EPA and WASA have agreed to a 7-year compliance 
schedule until July 2014 for project completion. EPA intends to 
reissue the WASA's Blue Plains permit with year with a 
compliance schedule to get the job completed. This permit will 
be submitted for public review and comment as is required.
    With regard to the enforceable schedule of control of 
combined sewer overflows, to ensure the protection of the 
Anacostia River, Rock Creek, and the Potomac from the effects 
of discharge from the combined sewer system, EPA initiated 
Federal enforcement action earlier in this decade against WASA 
which resulted in a 2005 Federal consent decree. This decree 
provides WASA with a long-term enforceable compliance schedule 
for the completion of those controls under the national CSO 
policy and the Clean Water Act.
    We are very pleased to note that later this year WASA is on 
schedule to achieve a 40 percent reduction in overflows to the 
Anacostia River. When that plan is fully implemented, overflows 
to the Anacostia River are expected to be reduced by 98 percent 
in an average rainfall year.
    EPA will continue to carry out its duties in administration 
of the clean and safe drinking water programs in the District, 
in close contact and cooperation with WASA and local officials.
    With regard to Federal financial assistance, in D.C. clean 
water and drinking water State revolving fund programs provide 
annual grants to D.C. government. In the past 5 years in D.C. 
the clean and safe drinking water revolving fund programs 
provided grants in the amounts of $23 million under the clean 
water side and $39.5 million from the drinking water revolving 
fund. Such funds are directed to priorities established by D.C. 
government using an intended use plan, and typically 100 
percent of those funds are directed to capital improvement 
projects of WASA.
    EPA also administers infrastructure projects authorized 
through special congressional appropriations, and in the last 6 
years these have totaled approximately $3.5 million.
    I would last like to mention the fact that we are also 
working in partnership for watershed and source water 
protection. In addition to our regulatory and funding roles, we 
work through innovative partnerships in the D.C. area for 
drinking water source protection and the Potomac Basin for 
water security and preparedness, and, as part of the newly 
formed Anacostia Watershed Restoration Partnership. EPA has 
been a leader and active participant in the partnership efforts 
to restor the Anacostia River. EPA and WASA are members of what 
is called the Potomac River Basin Drinking Water Source 
Partnership, which is an organization to actively promote 
protection of drinking water sources in the basin.
    We will continue to work in close cooperation with D.C. 
WASA and D.C. government in addressing drinking water and 
wastewater issues and needs.
    Again, thank you for this opportunity. We will be glad to 
answer questions.
    Thank you.
    [The prepared statement of Mr. Capacasa follows:]
    [GRAPHIC] [TIFF OMITTED] T6013.084
    
    [GRAPHIC] [TIFF OMITTED] T6013.085
    
    [GRAPHIC] [TIFF OMITTED] T6013.086
    
    Mr. Davis of Illinois [presiding]. Thank you very much.
    We will proceed to Mr. Jacobus.

                  STATEMENT OF THOMAS JACOBUS

    Mr. Jacobus. Thank you, Chairman Davis and members of the 
subcommittee. I am Tom Jacobus, the general manager of 
Washington Aqueduct. Thank you for inviting me here today to 
discuss drinking water quality and the interaction between the 
Washington Aqueduct and the District of Columbia Water and 
Sewer Authority.
    Washington Aqueduct is a public water utility providing 
wholesale service to the District of Columbia; Arlington 
County, VA; and the city of Falls Church service are in 
northern Virginia. It is a Federal entity that is part of the 
U.S. Army Corps of Engineers Baltimore District.
    Washington Aqueduct's working relationship with D.C. WASA 
is sound and productive. Working together with effective 
oversight from EPA Region III, we provide the residents of the 
District of Columbia with excellent water, delivered with 
exceptionally high reliability at reasonable cost.
    Washington Aqueduct also works well with other Federal, 
State-level, and local agencies that have stewardship 
responsibilities over physical and biological resources. That, 
coupled with our interest in working with private advocacy 
groups, gives us the opportunity to contribute to solutions to 
environmental issues.
    One of the great strengths I see in both of our 
organizations, the Washington Aqueduct and WASA, is our 
willingness to continually evaluate our performance and to make 
improvements wherever we can. The public expects and they 
should receive no less.
    Washington Aqueduct's treatment plants employ multiple 
barriers to remove physical, chemical, and biological 
contaminants. We are fully in compliance with all drinking 
water regulations, and in many cases achieve standards far more 
conservative than the national regulations. However, as the 
potential contaminants become more complex and the ability to 
detect them in extremely low levels advances, we must continue 
to evaluate what changes in treatment may be needed to meet 
emerging Federal regulations and public health standards.
    We, along with Fairfax Water and the Washington Suburban 
Sanitary Commission, will cooperatively begin to acquire more 
data on pharmaceuticals and endocrine-disrupting compounds in 
general. The levels found to date have been extremely low, but 
we believe it is our responsibility to continue to look into 
the environment and see the water as we are using as our source 
water and learn more about it. We take that on willingly and we 
believe it is our responsibility.
    The Washington Aqueduct's financial needs are approved and 
supported by the Wholesale Customer Board. This board's 
principals are the general manager of D.C. Water and Sewer 
Authority, the Arlington County manager, and the city manager 
of the city of Falls Church. They are supported in that board's 
actions by their utility staffs. The board represents the 
population served by the water produced at Washington 
Aqueduct's Dalecarlia and McMillan water treatment plants. Its 
members report to their authority board or to their county or 
city government. In my judgment, this arrangement works very 
well.
    Thank you again for the opportunity to be here today to 
give testimony. I look forward to responding to any questions 
you may have.
    [The prepared statement of Mr. Jacobus follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.087
    
    [GRAPHIC] [TIFF OMITTED] T6013.088
    
    [GRAPHIC] [TIFF OMITTED] T6013.089
    
    [GRAPHIC] [TIFF OMITTED] T6013.090
    
    [GRAPHIC] [TIFF OMITTED] T6013.091
    
    [GRAPHIC] [TIFF OMITTED] T6013.092
    
    [GRAPHIC] [TIFF OMITTED] T6013.093
    
    Mr. Davis of Illinois. Thank you, Mr. Jacobus.
    We will now proceed to Mr. Siglin.

                    STATEMENT OF DOUG SIGLIN

    Mr. Siglin. Thank you, Chairman Davis, Congresswoman 
Norton, Congressman Van Hollen.
    Mr. Chairman, my name is Doug Siglin. I am the Federal 
Affairs director for the Chesapeake Bay Foundation, and on 
behalf of our 200,000 members I thank you for the opportunity 
to be here today.
    You have my written statement. I am going to try to just 
summarize briefly the four points that I want to make here.
    First is that D.C. WASA, through its Blue Plains Wastewater 
Treatment Plant, is absolutely critical to the health of the 
Chesapeake Bay. I use a little fact in the testimony that Jerry 
Johnson provided for me, that if you took the daily flow from 
the Blue Plains Advanced Wastewater Treatment Plant and put it 
in gallon milk jugs in 1 day and line those milk jugs up side 
by side, it would go around the earth one and a half times. 
That is to say that it is an enormous contributor of water to 
the Chesapeake Bay.
    The concentration levels of nitrogen in the water that is 
discharged from the Blue Plains plant is enormously important. 
As Mr. Capacasa just said, it is the largest source of 
nutrients to the Chesapeake Bay that we have in our 64,000 mile 
watershed. That is to say what Blue Plains does is extremely 
important.
    The Chesapeake Bay is suffering from an overload of 
nitrogen, which causes a deficit of dissolved oxygen in the 
water. We call these dead zones. It is the same kind of dead 
zone that is in the Gulf of Mexico. In fact, EPA tells us there 
are 44 estuaries and coastal areas in the United States now 
that are suffering from these kinds of dead zones.
    There are scientists who believe that the overload of 
nitrogen in our water is equal on an ecological perspective to 
an excess of greenhouse gases in the atmosphere causing climate 
change. It is a worldwide problem of huge magnitude.
    The challenge that we have before us is how do we address 
that in the Chesapeake Bay. Since the Chesapeake Bay 2000 
Agreement, there has been a regional process that has involved 
the District of Columbia, the State of Maryland, the State of 
Virginia, the State of Pennsylvania, and what we call our 
watershed headwater States, New York, Delaware, and West 
Virginia, to make allocations of reductions of nitrogen 
throughout the entire watershed. The scientists tell us that we 
can have no more than 175 million pounds of nitrogen in the bay 
to have it healthy. We have far more than that now. In order to 
get to 175 million pounds we have to make reductions.
    There was a very complex, multi-year process to create 
those allocations. Blue Plains was given an allocation. Blue 
Plains, the WASA management, has challenged the allocation from 
the time that EPA first offered its draft permit in 2006 and 
has, once again, challenged the allocation at the Environmental 
Appeals Board on April 1st.
    It is true, and I want to acknowledge the fact that they 
are moving ahead with plans, but at the same time they are 
moving ahead with plans to meet the allocation, they are 
challenging it legally. They are on a two-track strategy. I ask 
you what is going to happen if, in fact, the two-track strategy 
succeeds and the allocation is, in fact, rejected. That means 
that we are going to have to go back and reconsider that 
lengthy process that led to the allocation that Blue Plains 
has. That means that the State of Maryland and the State of 
Virginia are going to have to reconsider their allocations. And 
I would submit to you that is going to be more delay and a much 
longer time before we can actually get to the place where the 
bay is clean and healthy again.
    Finally, Ms. Norton, you know that I have been working with 
you since the year 2003, and with the appropriators, to get 
Federal appropriations for WASA. We have been quite successful. 
Because of your good work and the good work of the 
appropriators, we have been quite successful in that. I want to 
continue to work with that to get appropriations for D.C. WASA 
and the Blue Plains Treatment Plant. It is absolutely essential 
that the Federal Government do that.
    But what I want to do today is propose the notion that the 
management of WASA should voluntarily try to get past the legal 
minimum which is being assigned to it by this long, complicated 
process and EPA permit, to voluntarily go beyond, to try to get 
more nitrogen out of the system so that we can save the 
Chesapeake Bay, if you will, faster, and in return for that 
commitment, then it seems to me that all of us the region--
Maryland, Virginia, Pennsylvania, Delaware, West Virginia, and 
New York--would owe an obligation and that we all should work 
together to find the sources of financing that are going to 
make that possible.
    Thank you for your time.
    [The prepared statement of Mr. Siglin follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.128
    
    [GRAPHIC] [TIFF OMITTED] T6013.132
    
    [GRAPHIC] [TIFF OMITTED] T6013.129
    
    [GRAPHIC] [TIFF OMITTED] T6013.133
    
    [GRAPHIC] [TIFF OMITTED] T6013.130
    
    [GRAPHIC] [TIFF OMITTED] T6013.134
    
    [GRAPHIC] [TIFF OMITTED] T6013.131
    
    Mr. Davis of Illinois. Thank you very much.
    We will go to Mr. Boone.

                   STATEMENT OF ROBERT BOONE

    Mr. Boone. Thank you, Chairman Davis, Ms. Norton, Mr. Van 
Hollen. I truly appreciate this opportunity to speak with you 
today and share the point of view of the Anacostia Watershed 
Society. We have been observing the performance of the 
discharge of sewage in the watershed since 1989, and it was sad 
but we had to file a lawsuit to get the attention of WASA to 
stop discharging sewage into the Anacostia.
    We have a vision for a swimmable and fishable river by--
well, we started out with the year 2000, and we are slipping 
now to 2010. We don't want to slip much more than that. It is 
pleasant outside today, but 3 months from now it would be very 
appropriate to see kids and myself, too, probably out 
refreshing and enjoying the river swimming in it. So we hope to 
meet that clean water mandate of a swimmable Anacostia River, 
but to do that we are going to have to get the sewage out of 
the water.
    I am very glad to say we have been a great supporter of 
WASA. You know, we don't realize it, but this is the largest 
wastewater treatment plant in the world, and that is words, but 
accomplishing that is another story. We look to WASA to solve 
our problem. If we can get the sewage out of the water, we can 
have a swimmable river, but not until we do that.
    I must say that I have been told today by Mr. Johnson that 
40 percent of that 100 years of dumping sewage in the water, 40 
percent of that will be stopped coming September of this year. 
That is cause for celebration right there, I must say. The 
ecology of the water will profoundly change with 40 percent 
less sewage going into it. Not swimmable yet, but much better 
off.
    We are very concerned about the pharmaceuticals and the 
endocrine disrupters that are ongoing now. We are finding out 
more about those, and it is getting to be very scary, quite 
frankly. We would like to see a lot more energy focused on the 
removal of nitrogen, but also pharmaceuticals and endocrine 
disrupters.
    There is another issue about transparency. You know, with 
transparency within WASA's process it would eliminate a lot of 
the paranoia and a lot of the scandals and so forth that are 
going around. I think more effort in being transparent would 
effectively put forward WASA's effectiveness that people don't 
know about at this time.
    It is a regional burden that WASA bears, and it should be a 
regional solution, and a transparent regional solution. One 
puzzling problem I have right now is this impervious surface 
tax that we strongly support, but I understand that the 
District government is also proposing an impervious surface 
tax, and so we have two proposals floating around. You know, a 
ratepayer receiving two bills about impervious surface is going 
to give impervious surface a bad name, so we need to have one 
combined or worked out solution to the impervious surface, 
because the impervious surfaces are creating the stormwater 
that is the major problem with the Anacostia River water 
quality.
    That is all I have to say. It is getting late. I thank you 
for this opportunity.
    [The prepared statement of Mr. Boone follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.094
    
    [GRAPHIC] [TIFF OMITTED] T6013.095
    
    Mr. Davis of Illinois. Well, thank you very much. I want to 
thank all of you gentlemen for being here with us.
    Mr. Capacasa, in reference to the amended Clean Water Act 
permit EPA issued to WASA last year to incorporate new limits 
for nutrient reduction to the Potomac River and Chesapeake Bay, 
in your opinion, what are possible and achievable solutions or 
ways to bring the Blue Plains Wastewater Treatment Plant into 
compliance with the updated standards?
    Mr. Capacasa. Well, Mr. Chairman, WASA has already 
submitted a plan to us to achieve the job. It is a very 
innovative plan, very creative plan which merges two goals in 
one, one of reducing overflows to the rivers, and one of total 
nitrogen reduction. So that plan has been submitted to us. We 
have commended it greatly and I think the job right now is 
getting on with the work of implementing a plan. I heard Mr. 
Johnson today committing to basically take the next steps to 
implementation. It will take until 2014 to complete the job 
because of the magnitude of the upgrade, but it will be a 
vitally important milestone to complete in the Chesapeake Bay 
restoration when it is done.
    Mr. Davis of Illinois. Thank you very much.
    Mr. Jacobus, given the role of the Washington Aqueduct in 
ensuring the public's safe drinking water and recent concerns 
raised about trace amounts of pharmaceuticals, what are the 
Aqueduct's long-term plan for continually upgrading or 
improving the quality of the District's water supply to stay 
ahead of new industry standard regulations?
    Mr. Jacobus. Yes, Mr. Chairman, all water treatment plants 
look at their source water and design treatment that meets the 
needs to remove contaminants from the source water. We do that 
right now. In the future, as we look at contaminants such as 
endocrine disrupting compounds, pharmaceuticals being one of 
them, and if we can't find better ways to keep them out of the 
water and if we find that their levels are increasing to a 
point that treatment is required, then we will certainly be in 
a position to employ treatment, because we are now initiating a 
study to look at alternative treatment sources, but it is based 
on what is the contaminant, what is an appropriate treatment, 
and then we have to then look at the cost and then the phasing 
in of that.
    So we are going to continue to, starting now, with a new 
study looking at some of these emerging contaminants, to look 
at the long-term efficacy of our treatment plants to make sure 
that we will always be in compliance and that we will 
communicate with our customers and collaboratively deal with 
those we serve in the District of Columbia and our Virginia 
customers to make sure they understand what the potential risks 
are, what the potential treatment opportunities are, look at 
the costs and benefits of all of that, and we will work 
together to make a decision to make these capital investments.
    But it will be science-based, it will be risk based, and it 
will also be best practices, and we are committed to a process 
to determine that which will give us a suite of options. We 
will select from among those and do the projects that will be 
required to keep the drinking water safe into the future as 
contaminants continue to get into the watershed from other 
human activity.
    Mr. Davis of Illinois. Well, gentlemen, thank you very 
much. I am going to go to Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. A few quick questions. 
If I can just get direct answers, I think we will be fine.
    Mr. Jacobus, you heard my concern and my understanding that 
there are competing priorities when, for example, Washington 
has to decide where to spend the money, if it is lead pipe, 
partial lead pipe replacement, and the alternative, 
orthophosphate.
    Now, the District has a lot of experience of others on 
which to rely. When can you tell us it will be appropriate to 
rely on orthophosphate or not in this particular jurisdiction?
    Mr. Jacobus. I think the orthophosphate has shown, since 
its induction into the system and introduction in 2004, that it 
is working well, and that it has brought the levels of lead--
remember, the lead comes from the lead service line pipes, and 
so as the water sits in those pipes it tends to leach it out. 
The orthophosphate puts a barrier on the inside or the pipe. 
That is working, and the demonstration that it is working 
effectively are the results that are being shown in the last 
several cycles of the testing.
    Ms. Norton. You think it has already been definitively 
proved?
    Mr. Jacobus. I think it has been very effective and it is 
properly protecting the citizens, as it was intended to do, and 
the test results show that.
    Ms. Norton. Given the cost benefit issues that particularly 
you, Mr. Siglin and Mr. Boone know and worked so hard with me 
and other Members of the region to address, do you think the 
time has come to rely on this new approach rather than to put 
public money into the gold standard of replacement of the 
public portion, whether or not--I will make the question 
harder--whether or not the private party wants to do its share, 
as well.
    Mr. Jacobus. Looking at my responsibilities at the 
Aqueduct, ma'am----
    Ms. Norton. No, I am asking Mr. Siglin and Mr. Boone.
    Mr. Jacobus. I am sorry. Excuse me. I apologize.
    Ms. Norton. Given the competing priorities that they know 
very well, because they help me here as I try to get more 
money. They have heard the testimony. They have had to sit 
through this testimony. And they have heard me say we are on 
pay-go, and they have put in a lot of elbow grease. You have 
heard the testimony of Mr. Jacobus. You have heard testimony of 
GAO. You heard the testimony that other jurisdictions have even 
more definitively shown. In terms of the priority, do you think 
the priority should be in putting money, public money, into 
replacing the public portion of lead pipes in the District of 
Columbia.
    Mr. Siglin. Congresswoman Norton, I have become an instant 
expert on orthophosphates over the last 2 hours.
    Ms. Norton. Last two what?
    Mr. Siglin. Hours, sitting here in the hearing. Seriously, 
I can't make a judgment about lead pipes and the----
    Ms. Norton. That is not what I am asking you to make a 
judgment about. Others who have expertise, I am asking you 
about where the money ought to be spent.
    Mr. Siglin. I understand.
    Ms. Norton. Do you think, if you had the choice to make 
that WASA should put the money into the public portion of lead 
pipes or should put the money into CSO or other parts of the 
system which are crying for money--I mean, somebody has to make 
that decision. I am pleased to make it; I am just looking for 
input from people who have credibility with us instead of 
simply making it. You heard the evidence. I tell you I go by 
the evidence.
    Mr. Siglin. Congresswoman, I can only repeat back to you 
what I think I heard today. What I think I heard today is if 
you only replace the public portion of the lead pipes and not 
the private portion it is not going to be as effective as you 
want it to be. I think I also heard that the orthophosphate 
treatment has been working and that appears to be a possible 
solution. That is the sum of what I know about that particular 
aspect.
    Ms. Norton. To the extent of that evidence is not 
contradicted, you know, the reason I put you on record on this 
is everybody accuses my environmental friends of wanting to 
spend money whether or not, and I am just giving you the 
opportunity to say if you prove it, and we haven't heard 
evidence to the contrary, and you have huge priorities 
otherwise, you need to advise public officials because they 
have to make the decision. As far as I am concerned, you 
answered the question, but I am going to go on.
    Maybe you can help me, Mr. Capacasa. I am trying to find 
out about all these. I asked our two prior witnesses about 
whether or not WASA is working at cross purposes with many of 
us who are trying to take nitrogen, eliminate nitrogen from the 
Anacostia and from the water, when they engage in attempts, 
protests, you set one standard, then there is a protest--and 
there is an appeal appearing right now, April 1st. His answer 
is, you know, we settled these things. Are you lowering the 
standard? If they are settling them, why aren't they settling 
them before protests and appeals happen?
    Mr. Capacasa. We believe, through the Chesapeake Bay 
program, the D.C. Mayor represents D.C. government and comes to 
the tale and makes agreements, and the allocation that we 
provided to D.c. was respective of the allocation that D.C. 
agreed to as part of the Chesapeake Bay Compact, if you will. 
So we do think it is an unnecessary delay and unnecessary 
challenge.
    The process allows for parties to exercise their rights of 
appeal, and that is what we have.
    Ms. Norton. Do you think they are doing it because these 
are very costly? I mean, are they trying to save money, because 
they obviously don't have a lot of money.
    Mr. Capacasa. Well, certainly it is a large cost. I think 
they want to get it right because if they are going to be 
building cap facilities for $800 million they want to get it 
right. I just think we spent 10 pages in our response to 
comments explaining a rationale for the total nitrogen limit. 
We think it has been thoroughly vetted and explained and very 
transparent to those who want to know why it is what it is.
    Ms. Norton. When I heard something that apparently doesn't 
cost money, I think your testimony found that the Lead Copper 
Rule, that they were in compliance. The so-called dialectics 
where you had to wring out of WASA that they don't use 
dielectrics when lead and copper pipes are joined. Should they 
be, particularly since it doesn't present a tremendous cost?
    Mr. Capacasa. Ms. Norton, e can share with you a report 
that is on the EPA Web site right now which looked at the 
specific issue of two different metal pipes joining each other 
in the D.C. water system. It is called galvanic corrosion. When 
the treatment process is working as good as it is now in D.C., 
this report determined that it was really a minimal benefit, a 
minimal effect to have this.
    Ms. Norton. So it is really not worth the cost? I am not 
trying to make anybody spend money.
    Mr. Capacasa. In our view it is a minimal benefit.
    Ms. Norton. How much does it cost?
    Mr. Capacasa. I can't speak to that. It may be minimal 
cost, but it is not----
    Ms. Norton. Would you provide that information to the 
committee within 30 days if you don't have it.
    Mr. Capacasa. Sure. We will share that report with you. 
Yes.
    Ms. Norton. If it is not necessary, it is not necessary.
    Would you clear up this flushing problem for us. There is a 
lot of controversy about flushing by EPA. Now, EPA regulates 
the first draw of water samples, but we all know the second 
draw is equally, if not more, representative of how we operate, 
how people use water to cook and to drink. WASA seems to take 
advantage of the fact and has been accused of lots of flushing. 
The one that most disturbed me, Mr. Capacasa, was in 2007 when 
WASA instructed the D.C. public schools to flush every school 
for 45 minutes the night before sampling. Do you think that is 
appropriate?
    Mr. Capacasa. We do have protocols that apply to large 
buildings such as schools. The protocols are different between 
a residential sample method and larger buildings such as 
schools. The protocols do allow for the nightly----
    Ms. Norton. Forty-five minutes of flushing the night before 
the sampling?
    Mr. Capacasa. If it occurs the night before and the water 
stays stagnant for a period of 8 hours or more----
    Ms. Norton. So it is all right to flush the night before 
within the rules?
    Mr. Capacasa. Some flushing the night before is within the 
rules. I would be glad to share----
    Ms. Norton. Why did they flush? Wy do you think that they 
did flush? There may be some good reason for it.
    Mr. Capacasa. We can double check on that, but, like I 
said, we have provided the appropriate protocols to the D.C. 
school system for the sampling of the schools. Two rounds of 
sampling of the schools have occurred using an EPA protocol. I 
would be glad to share that with the committee.
    Ms. Norton. Excuse me, sir. How much flushing should occur 
before water at a school is sampled? What does the EPA require, 
if anything at all?
    Mr. Capacasa. I think we had a recommendation of shorter 
time perhaps, maybe 4 or 5 minutes, but I want to be sure about 
that before I definitively state that is the answer.
    Ms. Norton. You were clearly informed. I can't believe you 
were not informed of this. Is there anything that EPA can do 
about these flushing incidents?
    Mr. Capacasa. We have provided quite a bit----
    Ms. Norton. Which may give a completely false picture of 
whether or not thousands of people have contaminated water.
    Mr. Capacasa. I understand the concern, and certainly where 
school children are involved we want to make sure the best is 
done. We provide quite a bit of assistance to the D.C. school 
systems on sampling protocol, and EPA does----
    Ms. Norton. They were instructed. They were instructed by 
WASA, so I am not asking what they would do; I am asking, if 
WASA tells them flush this thing for 45 minutes and that is 
what they do, I guess, I am asking you if EPA monitors that in 
any way.
    Mr. Capacasa. It is an area of the law where we don't have 
any direct authority.
    Ms. Norton. So maybe Congress needs to give you some?
    Mr. Capacasa. Large buildings and schools are not within 
our direct authority under the Drinking Water Act. It is 
primarily water as distributed in the distribution system.
    Ms. Norton. As a matter of fact, you are right. That is why 
our bill, the bill with Chairman Waxman--and before this 
hearing I said to him that even if we do not proceed with the 
whole bill, with respect to the parts having to do with 
children and with schools, it seems to me we ought to pull that 
out and try to move it.
    Mr. Capacasa. Ms. Norton, we are going to be sponsoring a 
workshop this year for owners of large buildings within D.C. to 
make sure they understand the proper protocols for testing and 
maintenance of water quality in large institutions.
    Ms. Norton. Remember, I am dealing with the water guys, 
WASA, telling them to flush, so they would presume that it had 
your blessing and that it was appropriate scientifically.
    I don't want to keep this panel. We have been here a long 
time. I am very concerned about what is beginning to come out 
on bottled water. It is a complete hazard to the environment, 
and now we are learning that some bottled water which people 
regularly drink while they are engaging in healthy activities, 
like water and running, may, because of the nature of the 
bottles--and there are some numbers, three, seven. I don't know 
which numbers are supposed to be worse than others.
    Could I ask any of you, do you think it is appropriate for 
people to use bottled water, even in light of all you know 
about water and what we are trying to do to improve water here?
    Mr. Capacasa. I will just start by saying that the water is 
delivered to the tap.
    Ms. Norton. Excuse me?
    Mr. Capacasa. The water as delivered to the tap in the 
District meets all Federal health-based standards. I personally 
don't see----
    Ms. Norton. So it is not necessary?
    Mr. Capacasa. I personally don't see a need to----
    Ms. Norton. To use these bottles which they now tell us, 
themselves, may be contaminated with some harmful chemical? 
That would be your view, Mr. Jacobus?
    Mr. Jacobus. Congresswoman, I would like to say that I 
would like to come to the next hearing you hold and find a 
pitcher of water with ice and glasses on the table.
    Ms. Norton. You won't. This is what we use. I am asking you 
if this is what we should be using.
    Mr. Jacobus. But the thing is I don't think there is 
anything wrong with this water, but there is also----
    Ms. Norton. No, I am asking you whether there is anything 
wrong with this bottle.
    Mr. Jacobus. I suspect that concern is way overblown, but 
the fact that people are drinking bottled water in lieu of the 
city water that we have gone to all of the trouble and expense 
at the ratepayer' expense, and it is perfectly good to drink. 
The problem is not the water; the problem is the confidence 
that people have in their water.
    We are, with your help and others within the District of 
Columbia government, we want to work harder to find a way to 
get people's confidence in our water supply so that they can go 
to the tap and take a drink of water. This bottle is 250 times 
more expensive than a glass of water drawn from the tap.
    So while we are talking about raising water rates over 
here, on this hand people are buying water that is much more 
expensive than the cost they will incur with the increased 
rates. So we are working with D.C. WASA, with Jon, and everyone 
else. We, I believe, need to work in a way to restore the 
public confidence.
    I am here to tell you that we at the Washington Aqueduct 
continue to have confidence in what we do and we want to work 
with our partners, because we deliver great water to all of our 
customers that is perfectly good to drink. The trouble is that 
people aren't convinced of that, and that is an area that we 
have to find the connection, because it is a public service 
that we offer and people are not getting the advantage of it.
    Ms. Norton. We have you at the same table with Mr. Siglin 
and Mr. Boone because of a seamlessness of our environmental 
concerns. Leave aside for a moment whether number three and 
seven--you have to look on here to find out which number. Leave 
that aside for the moment and let me ask both of you: should 
these containers be eliminated in light of where we know they 
end up?
    Mr. Boone. I will answer first. I think absolutely yes they 
should be eliminated. They end up in the Anacostia River. They 
end up in the ocean. There is research that has confirmed that 
plastic doesn't disappear. It breaks down into little pieces 
and it ends up in the food chain, becoming an endocrine 
disrupter. There has been considerable research about this done 
on the Pacific side of the United States. And so the plastic is 
persistent in our environment. It is all over the place.
    But I must say, Congresswoman, by having it here, you 
affirmed its use. You set the standard that this is all right, 
this is good to have.
    Ms. Norton. You are absolutely right. Don't think I won't 
bring it to the attention of the chairman of the committee. We 
all do this just out of habit. No one thinks about it. We do 
have a Speaker who is greening the Capitol. I am going to 
suggest to her that when it comes to our offices, where they 
bring these great big bottles, there may be nothing else you 
can do, nor do I know whether lead in the pipes exists here in 
the Congress. It probably does. But if we didn't invest in 
these, I bet we would save gobs of money. I asked it in order 
to engage in an act of self-incrimination.
    Mr. Siglin, I don't know if you have a response to that.
    Mr. Siglin. Congresswoman Norton, my children think I am a 
real pain because I do everything I can to keep them from 
drinking bottled water. In fact, we had a couple that we 
refilled because I didn't want them to buy new ones, and then I 
read some place that wasn't a good thing to do either, so I am 
with you completely. Talk to the Speaker and see if we can get 
it out of here.
    Ms. Norton. Mr. Siglin, could I just thank you for your 
suggestion. My colleague was not here when Mr. Siglin spoke 
about getting more nitrogen out, in other words, rising above 
the EPA's standard in light of what happens to the bay and 
rivers and tributaries, but he also had heard testimony about 
competing costs, and so he didn't offer a free lunch. Why don't 
you folks come up with some more money to get the nitrogen done 
with and the standard where it should be, especially since we 
are missing the deadline that had been set.
    Mr. Siglin, you said that we should ask for a better 
standard, an improved standard, if the three jurisdictions in a 
version of win/win would also engage in financing the reduction 
of nitrogen, as well, was that your testimony, essentially?
    Mr. Siglin. Yes, I would like to be clear that I think the 
Federal Government ought to help, to the greatest degree 
possible, WASA achieve the nitrogen concentration limits that 
it has been given by the EPA in this draft permit. But on top 
of that I suggested that I thought it would be the right thing 
to do, since we seem to be actually failing in the big picture, 
which is to figure out how to get the bay clean. The Clean 
Water Act has given us substantial progress since 1972, but the 
job isn't getting done.
    If we continue with the regime of only doing the minimum 
necessary by law, and, in fact, fighting the minimum necessary 
by law, but ultimately only doing the minimum necessary by law, 
we are not going to get to the goal. So what I am suggesting is 
that, if it were possible, it would be a wonderful thing if the 
WASA Board of Directors would say, you know, WASA management, 
don't just take the legal minimum that has been handed to you 
by the EPA, but go beyond it.
    We, in fact, do have the capacity at Blue Plains to do 
that. We could go beyond that if the decision were made.
    Now, there is a cost involved, and, of course, a lot of 
this hearing to day is about how huge the cost of all these 
things are and where the tradeoffs are and all of that thing, 
but I guess that I would say it would be a wonderful thing if 
the world's largest advanced wastewater treatment plant, which 
happens to serve the Congress of the United States and the 
White House and the capital city of the free world, would say 
we are going to do more than the legal minimum, and then to 
have all the partners in this region say, yeah, we like that 
and we are going to help you pay for it.
    Ms. Norton. Mr. Siglin, I know you realize there is a 
precedent for that. We finally got all of the region to agree 
on the same kind of win/win if we can get the money out here 
for Metro.
    Mr. Siglin. Yes.
    Ms. Norton. For the capital costs for Metro in return for 
dedicated funding from all three sources. That is the precedent 
that your suggestion seems to suggest.
    Thank you very much, Mr. Chairman.
    Mr. Davis of Illinois. Thank you very much, Ms. Norton.
    We will go to Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman. I just have one 
question, and it really follows on to Ms. Norton's question 
about the WASA compliance with the requirements and standards 
set out in the Chesapeake Bay 2000 Agreement, which I 
understood to be no more than 4.689 million pounds annually.
    I guess my question is to you, Mr. Capacasa, to just 
comment if you would on Mr. Siglin's testimony, because he 
raises what I think are some important points here. While you 
covered a lot of the EPA's relationship with WASA, you didn't 
raise in your testimony this issue, which I understand from Mr. 
Siglin's testimony that they continue to challenge the EPA's 
nutrient reduction goals that you have set out.
    And, as he said in his statement, Mr. Siglin's statement, 
``WASA provides a case study in why we are failing to achieve 
that goal. Rather than accepting it as a result of a detailed, 
legitimate process, WASA needs to pursue legal strategies to 
try to avoid its ecological and legal obligations. Its 
arguments have been rejected twice by EPA regulators and 
unanimously rejected last month by the EPA's Environmental 
Appeals Board, yet it continues to pursue this protest.''
    I didn't see that in your testimony. I guess my question 
is: isn't this a legitimate concern? Wouldn't we all be better 
off trying to stick to the standard that EPA set for the 
benefit of trying to clean this up? And is this consuming a lot 
of your time, energy, and resources, this fight over the 
nutrient reduction standard?
    Mr. Capacasa. Thank you, Congressman. Yes, in short 
response, it is consuming a lot of time. There are three 
appeals to the permit that are eating up a lot of our time and, 
more importantly, delaying the important job of cleaning up the 
bay.
    I think, in fairness to WASA, and I do want to be fair to 
them, D.C. was the first jurisdiction to meet the 2000 
Chesapeake Bay goal by putting BNR in place at the D.C. WASA 
facility. They have already well exceed the phosphorus 
requirement for the bay. They are well beyond the legal minimum 
requirement for phosphorus induction to the bay. We are working 
now with them cooperatively on this nitrogen project.
    But yes, in short answer, I wish the appeals went away 
because we would be able to get on with the job. I think it is 
unnecessary because the D.C. government had agreed to those 
allocations as part of the Chesapeake Bay program compact.
    Again, in fairness, they are exceeding the phosphorus goal 
already, they are well beyond the legal limit, and we think, 
frankly, everybody should drop the appeals so we can get on 
with the job of finishing the upgrades to the facility that are 
necessary.
    Mr. Van Hollen. I agree. I mean, it seems to me that we 
have set this goal, we have set these standards that we should 
do everything we can to try and meet them. As we all know, I 
think, we are already behind schedule with respect to the 
cleanup, and this delay simply puts us farther behind schedule.
    In the interest of time I am not going to pursue this right 
now, but I do think that it is important for all these entities 
to get on board with the agreement that was signed, as has been 
pointed out, by all the regional entities here. It does raise 
lots of concerns when, having signed an agreement and agreed to 
certain goals, it appears that people are trying to backtrack 
out of it. But we can have a longer conversation on that.
    Thank you, Mr. Chairman.
    Mr. Capacasa. Thank you.
    Mr. Davis of Illinois. Gentlemen, thank you very much.
    As we prepare for our fourth panel, I will proceed to 
introduce them. Mr. Dan Tangherlini is the city administrator, 
Deputy Mayor to Adrian Fenty, and serves as a member of WASA's 
Board of District railroads. Dan has served as the director of 
the District of Columbia Department of Transportation from June 
2000 to February 2006, and is well known for his work as the 
interim general manager of the Washington Metropolitan Area 
Transit Authority.
    Mr. Tony Griffin is the county executive of Fairfax County 
and has held the position since January 2000. Mr. Griffin 
serves on the Board of Directors of WASA.
    Mr. Timothy Firestine, since 2006, Timothy Firestine has 
served as the chief administrative officer for Montgomery 
County, MD, also a member of the WASA Board of Directors. He 
has spent the last 28 years of his life working for Montgomery 
County.
    And Dr. Jacqueline Brown is the chief administrative 
officer for Prince George's County, MD. She is the first woman 
in the history of the county to hold this position and has the 
responsibility of coordinating government services for 27 
municipalities in addition to her role as a member of WASA's 
Board of Directors.
    Ladies and gentlemen, thank you very much. If you would, 
stand and raise your right hands.
    [Witnesses sworn.]
    Mr. Davis of Illinois. The record will show that the 
witnesses answered in the affirmative.
    Let me thank you all so much for your public service and 
for your patience today and being here at this hour. We will 
begin with Mr. Dan Tangherlini.
    Sir, you may proceed 5 minutes to summarize your statement. 
Of course, your full statement, as will be the statement of all 
the witnesses, is included in the record.

STATEMENTS OF DANIEL TANGHERLINI, CITY ADMINISTRATOR, DISTRICT 
 OF COLUMBIA, AND D.C. WASA BOARD MEMBER; ANTHONY H. GRIFFIN, 
 COUNTY EXECUTIVE, FAIRFAX COUNTY, AND D.C. WASA BOARD MEMBER; 
  TIMOTHY FIRESTINE, CHIEF ADMINISTRATIVE OFFICER, MONTGOMERY 
 COUNTY, AND D.C. WASA BOARD MEMBER; AND JACQUELINE F. BROWN, 
 CHIEF ADMINISTRATOR OFFICER, PRINCE GEORGE'S COUNTY, AND D.C. 
                       WASA BOARD MEMBER

                STATEMENT OF DANIEL TANGHERLINI

    Mr. Tangherlini. Thank you very much and good afternoon, 
Mr. Chairman and members of the Subcommittee on Federal 
Workforce, Postal Services, and the District of Columbia. Thank 
you for allowing me the opportunity to speak with you today 
about the District of Columbia Water and Sewer Authority [D.C. 
WASA].
    My name is Dan Tangherlini, as previously stated, and I am 
the city administrator for the city of the District of 
Columbia. In this role I am responsible for the daily 
operations of the D.C. agencies under mayoral control, 
preparing the District's annual operating budget, setting 
operational goals and performance measures to ensure that 
agencies are meeting the needs of the residents of the District 
of Columbia.
    I am also privileged to be appointed by Mayor Adrian M. 
Fenty as a principal member of the District of Columbia Water 
and Sewer Authority Board of Directors and have been serving in 
that capacity for the past year.
    D.C. WASA plays a vital role in protecting the health and 
safety of District of Columbia residents and visitors by 
providing safe drinking water and wastewater treatment 
services, as well as critical infrastructure needed for fire 
suppression and emergency response in the Nation's capital.
    D.C. WASA operations, from operating the largest advanced 
wastewater treatment plant in the world to the development and 
implementation of the EPA mandated long-term control plan, will 
also greatly impact the cleanup of the Anacostia River 
watershed and economic revitalization along the waterfront.
    It is important to recognize the history of D.C. WASA and 
its relationship to the District of Columbia and the greater 
Washington metropolitan region. In doing so, it is important to 
note that D.C. WASA's assets are the property of the District 
of Columbia, and that the predecessor organization to D.C. WASA 
was created as an entity to serve the Federal city and its 
residents, as represented by the majority it holds on the D.C. 
WASA Board of Directors.
    In my view, the three critical issues facing D.C. WASA are 
the same today as they were almost a year ago when I initially 
was nominated to the D.C. WASA Board, and that is, one, 
undertaking the long-term control plan; two, upgrading the Blue 
Plains Water Treatment Plant to comply with the newly issued 
EPA permit requirements; and, three, investing in and improving 
the water and sewer infrastructure.
    The first two issues will be critical in improving the 
water quality of the Anacostia River and surrounding ecosystem, 
which we can all agree has been neglected for far too long. The 
third affects the quality and dependability of drinking water 
in the District and efficient use of our sewer system. 
Together, these three issues present a substantial challenge to 
D.C. WASA's finances and will greatly impact District and 
regional ratepayer.
    Due to the fact that the District inherited its antiquated 
water and sewer infrastructure from the Federal Government, it 
is appropriate that our Federal partners remain engaged with 
this issue related to D.C. WASA. Further, I look forward to 
working with the committee and Congress to find ways to 
financially support our efforts to address the critical 
improvements that have been discussed here today.
    Finally, I recognize that issues related to the financial 
oversight of D.C. WASA are of an interest to the committee; 
therefore, I would like to affirm that the District remains 
committed to working with my fellow D.C. WASA Board members, 
the region, and Congress to reach an agreement on governance 
that will be amenable to all parties and ensure the continued 
strength and quality of D.C. WASA.
    Thank you very much for your time. I would be happy to 
answer any questions you may have at the appropriate time.
    [The prepared statement of Mr. Tangherlini follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.096
    
    [GRAPHIC] [TIFF OMITTED] T6013.097
    
    [GRAPHIC] [TIFF OMITTED] T6013.098
    
    Mr. Davis of Illinois. Thank you very much.
    We will go to Mr. Griffin.

                STATEMENT OF ANTHONY H. GRIFFIN

    Mr. Griffin. Good afternoon, Mr. Chairman and Mr. Ranking 
Member, members of the subcommittee. I am Anthony H. Griffin, 
county executive, Fairfax County, VA. I also have the privilege 
to be serving as Fairfax County's voting member to the District 
of Columbia Water and Sewer Authority.
    I appreciate the opportunity to speak to you today. I have 
taken the liberty to coordinate my testimony with my regional 
colleagues and fellow D.C. WASA Board members to minimize 
repetition in our comments.
    As the most senior in tenure on the Board, having been 
Fairfax County's voting member since November 1996, I will 
attempt to give some historical perspective and context to this 
hearing. My colleagues will address current issues.
    When the first meeting of the D.C. WASA Board of Directors 
was convened in October 1996, it was an organization borne of 
the District of Columbia Department of Public Works, saddled 
with debt, unreliable revenue, and a physical plant that was 
barely functioning.
    Just this past March, D.C. WASA's bond rating had been 
improved to AA by one rating agency. Its reserves are healthy 
and its overall operation is approaching premier status, with 
the Blue Plains facility earning the industry's Platinum Award 
for its quality operation.
    Consultants hired by the D.C. WASA Board of Directors to do 
a comprehensive budget review of the Authority at the behest of 
the City Council of the District of Columbia called D.C. WASA 
``the best-kept secret on the east coast.''
    The success achieved today has come about because the Board 
of Directors checked their jurisdictional hats at the door and 
committed to make D.C. WASA a world class organization. The 
District of Columbia and its jurisdictional neighbors can only 
make our metropolitan area a success if we all work together. 
The core cannot succeed without its neighbors, and the suburbs 
are diminished without the capital city state.
    Twice the Board of Directors has commissioned a Board 
committee and studies to look at the issue of governance. The 
first time was in response to a legislative mandate, District 
of Columbia Law 11-102, Section 43-1677, to include responding 
to the requirement of ``determining the feasibility of 
establishing the Authority as an independent regional authority 
and make recommendations for the ongoing relationship of user 
jurisdictions to the Authority.''
    The threshold question for the first study was, ``Would 
sufficient benefits result from changing the current D.C. WASA 
governance structure to that of a regional authority model?'' 
At the time of the study, the Authority was believed to be 
independent in that D.C. WASA had established its own rate 
structure and operating and capital budgets, provided that the 
Mayor and the Council of the District of Columbia could review 
and comment prior to being incorporated into the annual 
appropriation legislation sent by the District to Congress.
    Water and sewer funds had been segregated from the 
District's general fund, and D.C. WASA had established 
independent bonding authority. New financial procurement and 
personnel systems had been created to support D.C. WASA's 
ability to operate.
    Against this 3-year record of independent operation, the 
tasked committee and the Board of Directors concluded that, 
while a wholly independent regional authority was technically 
feasible, no change in D.C. WASA's governance should be 
pursued.
    I was on the committee and was the maker of the motion to 
not change D.C. WASA's governance structure. My rationale was 
that the current organization, while not perfect, was 
sufficiently independent and accomplishing what was intended in 
terms of accountability. Additionally, seeking change would be 
politically difficult and not the best use of resources.
    One recommendation from the initial governance study was to 
revisit the question of governance no later than 2005, on the 
theory that there is benefit from re-examining whether the 
purpose of D.C. WASA is still being accomplished.
    The second review completed in 2006 reached a similar 
conclusion to the first in that the current structure was 
working. The additional consideration not addressed in the 
initial study concerned D.C. WASA's long-term interest in who 
operates the Washington Aqueduct currently operated by the U.S. 
Army Corps of Engineers.
    I recite this history because I believe it is important to 
make clear that D.C. WASA has become a success story because 
all the jurisdictional partners focused on making it a success. 
Fairfax County was looking to make sure that its investment 
produced accountable and reliable service, nothing less, but 
nothing more. D.C. WASA will not advance if it is at the 
expense of one or more of its member jurisdictions.
    I am, on the county's behalf, very sensitive to the 
ownership and location of the Blue Plains facility. The Board 
strictly adheres to voting according to joint use and non-joint 
use on contractual and financial issues. Retail rates are 
approved only by District members of the Board, but my 
observation is that rate increases have been balanced between 
the legitimate business requirement of D.C. WASA and the needs 
and the ability to pay of the customers being served. This 
balance was not always observed, requiring the creation of D.C. 
WASA.
    As long as the Board of Directors continues to be 
fiduciarily prudent and responsible, the financial independence 
that Congress intended for D.C. WASA should not be compromised. 
Consequently, Fairfax County supports the passage of H.R. 5778, 
clarifying that the chief financial officer for the District of 
Columbia cannot override decisions of the D.C. WASA Board of 
Directors. The proposed legislation is, quite frankly, the 
clarification that Congressman Tom Davis intended in his 
colloquy on H.R. 4942, fiscal year 2001 District of Columbia 
appropriations on water and sewer authority.
    Mr. Chairman, thank you again for the privilege to speak. I 
will be pleased to respond to the committee's questions.
    [The prepared statement of Mr. Griffin follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.099
    
    [GRAPHIC] [TIFF OMITTED] T6013.100
    
    [GRAPHIC] [TIFF OMITTED] T6013.101
    
    Mr. Davis of Illinois. Thank you very much. I am going to 
ask Ms. Norton if she would continue with the hearing while I 
run and vote.
    Ms. Norton [presiding]. Of course, Mr. Chairman.
    The next witness is Timothy Firestine.

                 STATEMENT OF TIMOTHY FIRESTINE

    Mr. Firestine. Thank you, Congresswoman Norton and members 
of the subcommittee. I am Tim Firestine, the chief 
administrative officer for Montgomery County, MD, and a 
principal member of the Board of Directors of the D.C. Water 
and Sewer Authority.
    I appreciate the opportunity to speak to you today about 
preserving the independent regional nature of the D.C. Water 
and Sewer Authority. In particular, my testimony focuses on 
preserving the separate financial existence of WASA from 
District of Columbia governance. In order to accomplish this, I 
support passage of H.R. 5778, the District of Columbia Water 
and Sewer Authority Independence Preservation Act.
    As has been mentioned several times today, WASA was created 
in 1996 to respond to serious operational and financial 
problems at the Blue Plains Wastewater Management Plant. In a 
1996 report of this committee about the District of Columbia 
Water and Sewer Act of 1996, it was noted that, ``A collapse of 
Blue Plains would be an ecological catastrophe.'' This same 
report made it clear that the path to recovery required that 
WASA finances be managed independently from the District's. It 
also noted that, in order for WASA to be successful, it must 
remain a regional authority.
    The report also pledges that, ``The Committee commits 
itself to careful monitoring of the Water and Sewer Authority 
as it moves forward. It will do anything it can to help or 
improve the prospects of the Authority, and will be vigilant in 
looking for problems or attempts to subvert the performance of 
the Authority.'' That is where we need your help.
    Unfortunately, the independent WASA that has flourished 
over the past 10 years or so is jeopardized by the possible 
implication of subsequent Federal legislation that established 
the position of chief financial officer for the District and 
granted far-reaching authority to the CFO. Until 2006 an MOU 
between WASA and the District CFO addressed this conflict 
between the legislation creating WASA and that which created 
D.C. CFO position.
    In 2006 an interpretation of law that created the D.C. CFO 
requires that position oversee WASA and is not allowed to enter 
into an MOU with WASA. That changes the status quo. This 
interpretation endangers the financial independence so desired 
by this committee and the regional partners when WASA was 
created.
    Since its creation, WASA has established independent 
systems of governance, including those for financial 
management, procurement, human resources, and retirement. The 
suburban jurisdictions or WASA's wholesale customers depend on 
sewage services, not water, as was noted before, provided by 
WASA and have an ownership stake in these joint use sewage 
facilities, including the Blue Plains Wastewater Treatment 
Plant.
    For over 30 years D.C.'s suburban partners have paid more 
than 50 percent of Blue Plains' operation and maintenance 
costs, amounting to about currently $55 million annually. Our 
share of Blue Plains' capital costs is even higher at 60 
percent, and is expected to exceed $1 billion over the next 10 
years as WASA embarks on the nitrogen removal wet weather plan 
to advance the goals of the Chesapeake Bay program. With over 
$100 million of resources from the suburban governments being 
committed to at Blue Plains annually, there is a clear interest 
on the part of the suburban jurisdictions to continue to share 
in the financial oversight of this regional utility.
    Over the years, WASA has been a model now of successful 
regional cooperation. As was noted, the bond rating agencies 
just recently upgraded the bond rating to a strong AA. In the 
report issued by the Standard & Poor's credit rating agency, 
``the upgrade is based on a demonstrated track record of sound 
financial operations over time.'' Bond rating agencies have 
consistently cited the participation of the suburban 
jurisdictions and WASA's financial independence as key WASA 
strengths that have played a role in the strong bond rating 
that has evolved for WASA.
    As noted, recent actions seriously compromised the 
independence of this regional authority, and we hope would be 
reversed. Therefore, I would urge the committee to reassert its 
support for WASA's independent regional authority. Since this 
is a matter of an inadvertent conflict with Federal law, this 
issue cannot be remedied without congressional intervention; 
therefore, I would respectfully request that the committee 
consider the adoption of H.R. 5778, the District of Columbia 
Water and Sewer Authority Independence Preservation Act, which 
removes any ambiguity in Federal law as it relates to the 
authority of the D.C. CFO's fiscal authority over WASA.
    Thank you very much for this opportunity to testify before 
the committee.
    [The prepared statement of Mr. Firestine follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.102
    
    [GRAPHIC] [TIFF OMITTED] T6013.103
    
    [GRAPHIC] [TIFF OMITTED] T6013.104
    
    Ms. Norton. Thank you very much.
    My good colleague has to go to vote. Since I can't go, I 
asked him to vote for me and offer his statement.
    Mr. Van Hollen. I apologize for having to run for a vote, 
but I just want to do two things; thank all the members of the 
panel, with special thanks to those who are here representing 
two of the jurisdictions that I represent, Mr. Firestine and 
Ms. Brown. Thank you for your testimony.
    And thank you, Ms. Norton, for working with us to try and 
address this issue which, as you said, we just want to make 
sure that the intent that you and others put together and put 
on paper back in the 1990's is something that is preserved 
going forward. I think there has been, as Mr. Firestine just 
said in his testimony, other intervening Federal actions 
created a cloud of uncertainty here which we are now trying to 
resolve, and we have to do it through Federal law. So thank you 
for your partnership on this and I thank the witnesses.
    If I can get back, I will.
    Ms. Norton. Ms. Brown.

                STATEMENT OF JACQUELINE F. BROWN

    Ms. Brown. Good afternoon, Congresswoman. I am Dr. 
Jacqueline Brown, and I have served as the chief administrative 
officer for Prince George's County government since December 
2002. Since April 5, 2006 I have served as a principal member 
of the Board of Directors of the D.C. Water and Sewer 
Authority.
    As a Board member, I serve on the Budget and Finance 
Committee and on the Human Resources Committee. I take my 
responsibility to meet the mission of WASA very seriously, 
because what happens to and with WASA affects the region.
    My focus today is the residential diversity of the WASA 
work force. I would like to start off by saying that I am 
extraordinarily grateful and supportive to Congresswoman 
Eleanor Holmes Norton for her April 10th there to Mayor Adrian 
Fenty and Chairman Vincent Gray that requested the D.C. City 
Council introduce emergency legislation which would exempt WASA 
from the Jobs for D.C. Residents Amendment for 2007. Very, very 
indicative of the support and the collegiality that has been 
demonstrated here today.
    In addition, I am very grateful for the support of Mayor 
Adrian Fenty's proposed language in the fiscal year 2009 Budget 
Support Act of 2008 that exempts WASA from the Jobs for D.C. 
Residents Amendment for 2007.
    What I would like to do in terms of that is just to take 
time to do a little fact-finding that, as a suburban Board 
member of this essentially important and regionally important 
authority, I want to just present some of the work force facts 
that are here for the record.
    The employees are about 923, and almost 26 percent are from 
the District of Columbia. Almost 65 percent are from Maryland, 
and 9 percent are from Virginia, and .2 percent are from 
somewhere else. We actually have breakdowns in some of the 
counties in Maryland, since Maryland has about 65 percent of 
the work force for WASA. In Maryland we have 20 employees from 
Anne Arundel, 20 from Baltimore County, Charles County has 107, 
Howard County has 5, Montgomery County has 50, Prince George's 
has 376, and other counties have 21 members.
    What we have here is a situation where the residentially 
diverse work force in WASA has actually produced one of the 
stellar water authorities in the Nation. I think every last one 
of our employees is dedicated to fulfilling the regional 
mission of serving all of our customers with outstanding 
service by providing reliable and cost effective water and 
wastewater services in accordance with best practices.
    Again, I strongly support the efforts by Congresswoman 
Norton and by Mayor Fenty in terms of protecting the 
residential diversity of the WASA work force. I also, like my 
colleagues, strongly support H.R. 5778, which is the District 
of Columbia Water and Sewer Authority Independence Preservation 
Act.
    I thank you for this opportunity to speak with you and to 
thank you. I will be happy to answer any questions.
    [The prepared statement of Ms. Brown follows:]

    [GRAPHIC] [TIFF OMITTED] T6013.105
    
    [GRAPHIC] [TIFF OMITTED] T6013.106
    
    [GRAPHIC] [TIFF OMITTED] T6013.107
    
    [GRAPHIC] [TIFF OMITTED] T6013.108
    
    [GRAPHIC] [TIFF OMITTED] T6013.109
    
    [GRAPHIC] [TIFF OMITTED] T6013.110
    
    [GRAPHIC] [TIFF OMITTED] T6013.111
    
    [GRAPHIC] [TIFF OMITTED] T6013.112
    
    [GRAPHIC] [TIFF OMITTED] T6013.113
    
    [GRAPHIC] [TIFF OMITTED] T6013.114
    
    [GRAPHIC] [TIFF OMITTED] T6013.115
    
    [GRAPHIC] [TIFF OMITTED] T6013.116
    
    [GRAPHIC] [TIFF OMITTED] T6013.117
    
    [GRAPHIC] [TIFF OMITTED] T6013.118
    
    [GRAPHIC] [TIFF OMITTED] T6013.119
    
    [GRAPHIC] [TIFF OMITTED] T6013.120
    
    [GRAPHIC] [TIFF OMITTED] T6013.121
    
    [GRAPHIC] [TIFF OMITTED] T6013.122
    
    [GRAPHIC] [TIFF OMITTED] T6013.123
    
    Ms. Norton. Thank you, Ms. Brown. I have just a few 
questions.
    I do want to say to Ms. Brown that the District of Columbia 
is pleased to contribute so heftily to the gross regional 
product of the state of several counties in Maryland. I 
understand your concern. But I think the concern of the 
District was that these people do their job. They are unionized 
workers, earn their money here in the District of Columbia. The 
point is they earn it from the region, as well as from this 
city, and I appreciate the way in which Mr. Tangherlini, the 
Mayor, Mr. Gray, and the Board have worked with me and with Mr. 
Van Hollen to arrive at an amicable way to meet a resolution.
    Could I ask each of you, you heard a proposal much akin to 
the Metro proposal. We have a very big nitrogen problem here, 
and we are really playing games here. You heard the testimony. 
You know the issue enough to know that WASA feels so hard-
pressed that it fights the EPA, knowing full well that EPA does 
not have the gold standard for getting nitrogen out of the 
river and out of our water, yet WASA feels all kinds of 
competing priorities, particularly when it comes to cost.
    You all, I think, now participate in a bill that the entire 
region has cosponsored, a win/win bill that we are trying with 
some success--we think we can still do it--to get the Federal 
Government to pay for an increased share of Metro for capital 
spending in return for dedicated funding from the region, since 
we are the only Metro that doesn't have dedicated funding.
    Mr. Siglin testified that the only way to get out of the 
nitrogen rut without pretending that we are really cleaning up 
the Anacostian water is to do something similar. He didn't cite 
that. I cite that as the precedent.
    If the Federal Government, which is the primary actor and 
the largest ratepayer, were to come forward, do you think that 
it would be appropriate for members of the region to increase 
their funding for this purpose, or do you like things the way 
they are?
    Mr. Tangherlini. I will start, and I will say that, whether 
we think it is appropriate or not, we are going to have to as 
we try to meet the standard set by EPA and the commitments we 
have made as a region. I think as you discuss the nitrogen 
problem, that is a huge problem. It is about a $900 million 
problem. You can't ignore the CSO problem, as well, which is 
about a $2 billion problem.
    So really as you look at the water quality issues 
associated with cleaning up the Anacostia and reducing the 
continued impacts to the Potomac, you really have to look at 
the two problems combined. Frankly, those problems combined are 
the result of the infrastructure that we inherited in the 
District of Columbia. We might have built it differently. Even 
if we didn't, we think that the Federal Government has some 
responsibility for that and a broader regional and national 
goal of maintaining these waterways and enhancing the 
Chesapeake Bay.
    So I think the fact--and I speak for one jurisdiction--this 
is a commitment we have already made, and we are already 
committing substantial resources to it.
    Ms. Norton. Yes, but I didn't ask about those resources, 
because the suggestion was that increased Federal resources in 
return for increased local resources, essentially. That is the 
suggestion. Just like you have decided to do that with respect 
to Metro.
    Mr. Tangherlini. And I think, just like we have decided to 
do with Metro, we will more than likely decide to do here. I 
don't know what the specifics are.
    Ms. Norton. We don't have any specifics.
    Mr. Tangherlini. You are just dragging a promise out of me.
    Ms. Norton. No, I am just dragging out how committed you 
are. In fact, you bring CSO into it. Good, whatever it is, 
because the Federal Government plays a large role. My job is to 
push them, and we have been doing that, and we want even more. 
The question is going to come back on us, OK, what are they 
going to do that is beyond what they are already doing.
    Mr. Tangherlini. I think that is reasonable, and I would 
like to hear the answers to the left of me, but I think the 
fact is that we are committed to it and it would be great, 
actually, if that commitment was backed up with a Federal 
commitment, because that is the one commitment that is missing.
    Ms. Norton. So you say you are contributing more money than 
the Federal Government is at the moment? Is that what you are 
saying?
    Mr. Tangherlini. I think that is fair to say, absolutely, 
through our ratepayer.
    Ms. Norton. So you are saying at the very least the Federal 
Government ought to equal what you are now doing?
    Mr. Tangherlini. Yes, at the very least.
    Ms. Norton. Mr. Griffin.
    Mr. Griffin. Congresswoman, Fairfax County, I believe, 
supports doing what we need to do to clean the Chesapeake Bay, 
and if that means an increased contribution for our share at 
Blue Plains, I am sure that my Board would support that. I 
would just note that Fairfax operates the largest treatment 
plant in the State of Virginia, and we have not enjoyed the 
same level of Federal support that Blue Plains has, so that if 
you are successful in obtaining additional Federal funds on 
behalf of Blue Plains, if you could expand that to include 
other treatment plants in the Chesapeake Bay watershed that 
would be greatly appreciated.
    Ms. Norton. Mr. Griffin, you know the one advantage of 
being in the Nation's Capital is the big kahuna here is the 
Federal Government, and that is why you are getting any CSO 
money in the first place, because the Federal Government is a 
player here and a ratepayer here.
    Now, unless they have that role in Virginia do not expect 
Uncle Sam to come up with the same kind of piddling funds--I am 
not very satisfied with what they have here--but I can 
understand your concern. Certainly through us as the Nation's 
Capital these funds will reverberate whatever we can get and 
whatever--I appreciate your testimony--you are willing to do 
will certainly have its affect on, of course, the masterpiece 
of the region, the Chesapeake Bay.
    Mr. Firestine.
    Mr. Firestine. Thank you. Well, obviously, we share the 
same concerns. WASA has a strong environmental stewardship role 
here. We understand, and that is why our emphasis on the fact 
that this organization and resolving the nitrogen issue is a 
regional issue and will require resources of the region. 
Certainly we are willing to commit our share to that.
    As you know, there is a fee that was put into place in 
Montgomery County, at least my county. Maybe you don't know 
that. That basically goes toward the collection of moneys to 
help with our share of funding the resolution of this issue, 
which is also connected to our concern about the financial 
issue. We know that over time our commitment is going to be 
greater to this entity to resolve the problems that you 
mentioned, and that is the reason we want to assure that the 
fiscal independence does remain there as more resources would 
flow to resolving this problem.
    Ms. Norton. Dr. Brown.
    Ms. Brown. Yes. In Prince George's County there has been a 
real concerted effort to make sure that the waterways are 
clean, both in terms of debris but also chemically and in those 
kinds of things, working very closely with things having to do 
with the Anacostia, a commitment from our government to do 
that.
    I think your analogy of WMATA and this, although there are 
some slight differences, share a fundamental reason for all of 
the members of the region to contribute. Water knows no 
boundaries. Water really doesn't. I think it is very foolish of 
us to assume that the nutrients will stop, or whatever 
contaminants are will stop here and they won't cross the line 
because of some manmade or legislative boundary. That makes no 
sense whatsoever.
    And so the commitment to what is necessary is something 
that would be very seriously considered by the Prince George's 
County government if we could see that our Federal partners 
would be stepping up to the plate also in terms of doing their 
fair share. The headset and the demonstrated commitment to that 
by action and by resources is already a part of what happens to 
Prince George's. The three rivers that surround us are critical 
for us, the Potomac, the Patuxent, and the Anacostia. They are 
critical.
    Ms. Norton. Thank you, Ms. Brown. I think all of you show a 
willingness to do our share if we can get the folks up here to 
finally really do what they have not done for decades. It all 
certainly helps us.
    Could I just have some indication--I don't know if you 
know, but I indicated in my bill, the Anacostia River 
Initiative, finally passed. I had it in the WRDA bill, the 
Water Resources bill. This is very important because it is the 
predicate for getting more funds for the Anacostia. It says 10-
year plan with all of the actors. The Corps is the lead, so you 
see the Federal Government is deeply implicated, taking the 
lead.
    Within 1 year--I don't have the deadline--from enactment--
but it has been enacted several months ago now--the 10-year 
plan has to come forward. Do you know whether the Corps has 
reached out to you or any of you with respect to this plan to 
within a year of enactment of the Anacostia River Initiative, 
which is a predicate to more money for the Anacostia? Have you 
had any?
    Mr. Tangherlini. I haven't been reached out to personally 
and directly, but that doesn't mean we haven't been reached out 
to as an organization.
    Ms. Norton. I realize I am talking to the top. Can I ask 
you to do this, in terms of my own follow-through. Would you 
within 30 days let us know by addressing this question to the 
appropriate officials whether or not the Corps is at work? We 
intend to hold them to this deadline, and particularly in light 
of your testimony about funding, region willing to do its 
share, Uncle Sam hasn't done its, can't do anything unless 
there is a plan. The plan, we put in the bill 1 year so that 
nobody could skate off of that.
    Only a couple more questions.
    Mr. Tangherlini, we are told that the new stadium, thrills 
us all, had environmental issues in mind as it went up. Was it 
LEED or anything like LEED?
    Mr. Tangherlini. LEED registered. It has received a LEED 
certification. I am not sure what level, but it did receive a 
LEED certification, which makes it the only stadium to have 
accomplished that.
    Ms. Norton. In the United States?
    Mr. Tangherlini. As far as I know.
    Ms. Norton. Of course, it is the only one that has been 
built, but I congratulate you on that. So on the banks of the 
Anacostia--and you know my concern there--you are about to 
build on Poplar Point?
    Mr. Tangherlini. Yes.
    Ms. Norton. Never was intended for development, even more 
precious than what you have had to do around the stadium. 
Initially a green area, a National Park Service area, it took 
every drop of sweat to get that bill out of here. How will you 
preserve, in light of the massive development that may take 
place, how will you preserve Reservation 13 and Poplar Point, 
the environmental, the pristine environmental qualities of 
these two areas which have now been entrusted to you for which 
neither the framers nor anyone else ever expected that there 
would be development of any kind?
    Mr. Tangherlini. It is an excellent question. I think the 
District has taken a number of specific actions to improve its 
environmental stewardship as it seeks development.
    In the case of Poplar Point, roughly 35 acres of the 105 
that are there would actually be preserved perpetually as open 
space, and the proposals that have been discussed include a 
much more aggressive management of that open space than is 
currently being happened with the National Park Service.
    Actually, if you look at the Poplar Point area you will see 
that a good chunk of the area is actually developed for a Park 
Service maintenance facility, helicopter landing pad, and 
police station. There is an old----
    Ms. Norton. That is really a rather small chunk compared to 
what you are going to do.
    Mr. Tangherlini. Right. There is the old capital 
greenhouses there. A piece is actually under the Frederick 
Douglas Bridge.
    With your assistance, we have been moving forward with a 
proposal to move the Frederick Douglas Bridge and open up some 
of that land actually for re-redevelopment, if you will, as a 
park.
    So one of the big issues with developing Poplar Point, in 
particular, is to create a meaningful environmentally sensitive 
park, as well as then subject the entire development to the new 
Green Building Act standards of the District of Columbia, which 
requires as small a footprint as possible, environmental 
footprint as possible, on that development. That would also be 
the case with Reservation 13.
    Reservation 13 was, in many ways, the exact opposite of 
Poplar Point in the sense that it is for the most part paved 
parking lots without stormwater management on it. That actually 
could benefit from some kind of investment.
    Ms. Norton. As long as the river, itself, is protected and 
one doesn't build onto the river and one uses state-of-the-art 
techniques for making sure that the runoff, which is inevitable 
wherever people are, doesn't get to the river, making it any 
worse than it already is, we may have a chance.
    I appreciate that answer.
    Finally, actually this may be for all of you. You heard the 
testimony. I asked about water fountains. I believe this is the 
case, because this was an issue always in the several hearings 
that we had on contaminated water before. It has to do with 
schools and fountains. There was credible testimony at these 
hearings that a lot of that had to do with the fixtures and not 
with WASA.
    We got WASA then, now, and we will always hold them 
accountable, but how do you know that the water fountain out of 
which children drink is not really the responsibility of the 
District of Columbia or counties represented here and not WASA 
at all, because of lead-based fixtures? Can you tell me that 
there are not lead-based fixtures, internal fixtures, that 
children may be exposed to quite apart from anything WASA has 
done?
    Mr. Tangherlini. I can't tell you right now which of those 
fixtures have lead base components to them, but I can tell you 
this is among the reasons why the Mayor sought the Authority to 
have direct control over the school system, got it through the 
Council, and then got it through here on the Hill with your 
support.
    Having that kind of direct accountability so that problems 
like this can be identified and addressed, and then the Mayor 
can be accountable for it, is one of the reasons why we have 
made that a key priority of the administration.
    Then you support that. We support that with a $200 million 
investment in reconstruction of our school facilities, with one 
of the key components being the replacement of the drinking 
water infrastructure in those schools.
    So that is a key issue that we are looking at as we go 
forward with the modernization of our entire school facility 
structure.
    Ms. Norton. I don't know if this has been a problem 
elsewhere. I won't ask you to run through. This is a special 
issue for me and my own environmental work. But I have to 
indicate and to concede, frankly, the primary reason I am 
concerned about lead in the water has little to do with the 
average person; it has almost everything to do with children. I 
do not know of a child who had cancer when I was a young woman, 
or in college, or having my baby. I didn't know any. I have no 
recollection of any of these things. They certainly would have 
come to our attention because it was so rare.
    All this does is to confirm that somehow or the other we 
who are grown may well have escaped what for children now 
becomes a part of the way in which they are born into this 
world, that they are exposed to things that, if you are exposed 
to it when you are older you may get through it, but there has 
to be a hypothesis. You begin with that. There has to be a 
hypothesis that something is happening to younger people. 
Cancer is no longer merely the old person's disease it was when 
I was a kid. Children get diseases. I am not talking about 
people at life's end, at the beginning of life.
    One hypothesis may be that maybe those children wouldn't 
have lived in the first place. But the fact is that they were 
born and in elementary school and junior high school they get 
cancer.
    When we talk about nitrogen and the other contaminants, we 
basically, although all of us are exposed, are essentially 
talking about what we, in order to get the benefits of spending 
and whatever and the chemicals out of which the entire society 
is made, have essentially exposed a generation to unheard of 
diseases at a very young age.
    As I take Mr. Siglin's suggestion that maybe we all ought 
to buckle up and understand that it is going to take some more 
expenses, I would just urge you to bear in mind that we 
unknowingly, unwittingly may be forcing off diseases onto 
younger and younger generations that may have been prevented 
had we been willing to spend a little more money.
    As I close this hearing with the chairman still being 
fortunate enough to be voting on the floor, I must offer the 
apologies of the committee, but particularly apologies for 
myself, who have taken disproportionate amounts of time on 
other witnesses, and yes, even on you, and may I thank you very 
much for your testimony. That was indispensable to this 
hearing.
    The hearing is adjourned.
    [Whereupon, at 6:30 p.m., the subcommittee was adjourned.]
    [The prepared statements of Hon. Tom Davis and Hon. Kenny 
Marchant follow:]

[GRAPHIC] [TIFF OMITTED] T6013.124

[GRAPHIC] [TIFF OMITTED] T6013.125

[GRAPHIC] [TIFF OMITTED] T6013.126

[GRAPHIC] [TIFF OMITTED] T6013.127

                                 <all>

</pre></body></html>
